<html>
<title> - WHAT EMERGENCY?: ARMS SALES AND THE ADMINISTRATION'S DUBIOUS END-RUN AROUND CONGRESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


         WHAT EMERGENCY?: ARMS SALES AND THE ADMINISTRATION'S 
                    DUBIOUS END-RUN AROUND CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             June 12, 2019
                               __________

                           Serial No. 116-46
                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36568PDF                   WASHINGTON : 2019                       
                       



                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             	MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York                 Member
ALBIO SIRES, New Jersey			CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia		STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida		JOE WILSON, South Carolina
KAREN BASS, California			SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts		TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island		ADAM KINZINGER, Illinois
AMI BERA, California			LEE ZELDIN, New York
JOAQUIN CASTRO, Texas			JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada			ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York		BRIAN MAST, Florida
TED LIEU, California			FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania		BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota		JOHN CURTIS, Utah
ILHAN OMAR, Minnesota			KEN BUCK, Colorado
COLIN ALLRED, Texas			RON WRIGHT, Texas
ANDY LEVIN, Michigan			GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia		TIM BURCHETT, Tennessee		
CHRISSY HOULAHAN, Pennsylvania		GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey		STEVE WATKINS, Kansas
DAVID TRONE, Maryland			MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                                     
                                                                      
                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
 
 
 
 
 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Cooper, The Honorable R. Clarke, Assistant Secretary of State, 
  Political-Military Affairs.....................................     8

                                APPENDIX

Hearing Notice...................................................    57
Hearing Minutes..................................................    58
Hearing Attendance...............................................    59

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Statement for the record submitted from Representative Connolly..    60

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted from Chairman Engel.............    61
Responses to questions submitted from Representative Lieu........    63
Responses to questions submitted from Representative Phillips....    65
Responses to questions submitted from Representative Allred......    66

 
                  WHAT EMERGENCY?: ARMS SALES AND THE
            ADMINISTRATION'S DUBIOUS END-RUN AROUND CONGRESS

                        Wednesday, June 12, 2019

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 10:08 a.m., in 
room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel. The committee will come to order.
    Without objection, all members will have 5 days to submit 
statements, extraneous material, and questions for the record, 
subject to the limitation in the rules.
    We meet today to examine the fiasco surrounding the Trump 
Administration's decision to invoke emergency authority under 
the Arms Export Control Act and abuse of authority, in my view, 
and ram through $8 billion in arm sales to Gulf countries.
    We will hear testimony from the Assistant Secretary of 
State for Political-Military Affairs, Clarke Cooper. Mr. 
Assistant Secretary, thank you for appearing before us today.
    Welcome to members of the public and the press and thank 
you to our friends from C-SPAN, who are broadcasting this 
important proceeding.
    Before I recognize myself for an opening statement, I want 
to just say to the members I am going to be a little heavy with 
the gavel today because we want to try to get in as many people 
asking questions as possible. So the 5-minutes will be pretty 
hard and fast, instead of letting it go for six or 7 minutes. 
So I would ask people to please speak within the 5-minute 
recognized period.
    Let me say that the war in Yemen and America's role in it 
have been a major focus of this committee since the start of 
the Congress. I have made my views clear. While our Gulf 
partners have legitimate security concerns, the coalition's war 
effort has been reckless. We have heard too many heartbreaking 
reports about hospitals, school buses, weddings, and funerals 
wiped out in a fiery flash of destruction.
    At the same time, I am also angry. I am angry because, once 
again, the Administration wants to cut Congress out of the 
process. We are a co-equal branch of government. That is the 
way our Constitution was written. And it is not simply the 
executive branch's decision to disregard what Congress' will 
is. And we have seen, unfortunately, too many times, time, and 
time, and time again.
    Some of the weapons that cause the destruction are made in 
the United States. Other weapons made in our country have ended 
up in the hands of militias in Yemen, some of which are on the 
terrorist list. These are just a few of the reasons Congress 
has voiced deep concern about American policy on these matters 
and why offensive arms sales to the Gulf face a rocky path 
forward, when subjected to congressional review.
    Let's be clear. Congress' ability to review arms exports is 
upheld by law and upheld by long-standing tradition.
    In light of these concerns in Congress, did the 
Administration come to us to negotiate a path forward? No. Did 
they listen to Members on both sides of the aisle who wanted 
greater assurances that American weapons would not be used in 
the slaughter of civilians? No. Did they pay the least amount 
of respect to a co-equal branch of government and its 
legitimate and vital role? No.
    No, instead they employed an obscure and rarely used 
provision of the law to declare a phony emergency, rammed these 
sales through, and undercut Congress' ability to carry out its 
oversight role. If it were a real emergency for security under 
such an imminent threat that the transfer of weapons was the 
only way to prevent the catastrophe, then we probably would not 
be sitting here today. It would just be approved because it 
would be a real catastrophe.
    But here is the reality: there is no emergency. Do you know 
how I know? I know because a real emergency would require 
weapons that can be delivered immediately. If you need them 
right now, you want weapons that can be delivered immediately, 
not months or even years from now as these do.
    A real emergency would require weapons that have already 
been built and are relevant to whatever the immediate threat 
is. A real emergency would not justify building new factories 
in Saudi Arabia and the United Arab Emirates to manufacture 
weapons that have been built in the United States for years and 
years. A real emergency would not be followed by our Defense 
Secretary telling us the threat has now diminished.
    Again, there is no emergency. It is phony. It is made up 
and it is an abuse of the law, once again, attempting to cut 
Congress out of the whole picture. This is not a dictatorship. 
We do not rule this nation by fiat.
    Again, we are a co-equal branch of government. Remember 
when you were in school and you learned the checks and 
balances? Congress is a co-equal branch of government. We are 
not going to permit this to go by without a whimper.
    Just a few days before the Administration notified Congress 
about this so-called emergency, we got a briefing on the threat 
that Iran poses in the region. I have no doubt that Iran is a 
threat to the United States, to our interests, and our allies 
and partners. It is the world's most prolific state-sponsor of 
terrorism. Its activities in the Gulf could paralyze commerce 
and air travel. Tehran has supplied the Houthis with dangerous 
weapons and the Houthis have avoided negotiations to end the 
conflict, all while they have blocked assistance to help 
alleviate the world's worst humanitarian catastrophe.
    But this is nothing new. I obviously cannot talk about the 
details of the briefing we received but suffice it to say, 
though, we did not hear a single word about an emergency or a 
plan to move ahead with this sale. For this major fiasco, the 
Administration quietly let us know on a Friday afternoon before 
a holiday weekend. It is really a slap in the face.
    Congress is going to have to give itself stronger tools 
before the Administration just starts ignoring us completely. I 
have been working with Ranking Member McCaul for months on 
legislation to make sure future arm sales only go forward if 
the country buying those weapons meet certain conditions.
    We will also have to strongly consider changing the Arms 
Export Control Act's emergency provision, which the 
Administration again has flagrantly abused in this case. And we 
are looking at every possible avenue for stopping these 
transfers before they go forward under this phony 
justification, including measures that members of this 
committee will introduce later today.
    But for now, I would like some answers. I would like to 
know about the process that led to this outrageous decision. I 
would like to know who was involved, who thought it was a good 
idea to conjure up an emergency and cut an entire branch of the 
Federal Government out of the conversation.
    And we will get to those questions and others, Mr. 
Assistant Secretary, following your opening statement.
    Before that, I will yield to my friend, the ranking member, 
Mr. McCaul of Texas, for any opening comments he may have.
    Mr. McCaul. And I thank you, Mr. Chairman. Let me first 
start out by saying what an honor it was to attend the Normandy 
ceremony with you this past weekend.
    Make no mistake, the Iranian regime is our strategic enemy 
in the Middle East. They are the No. 1 state-sponsor of terror 
in the world today. They have a brutal history of American 
bloodshed, from the Marine barracks bombing in Lebanon in 1983, 
to the deaths of over 600 U.S. Servicemembers from 2003 to 
2011. They continue to hold American hostages and plot against 
our allies in Europe.
    Iran's destabilizing behavior in the Middle East threatens 
that region, and is a growing threat to the security of the 
United States, our military, and our citizens.
    Just last week, Marine General Frank McKenzie, our top 
military commander in the region, warned about attacks by Iran 
and/or its proxies, stating: I think the threat is immanent. 
Our allies in the region face this menace every day.
    I fully support the efforts of Saudi Arabia and the United 
Arab Emirates to defend themselves against Iran, including U.S. 
arms and training. I support the efforts to combat the violent 
overthrow of a legitimate U.N.-backed Government in Yemen by 
the Iran-backed Houthi rebels. These rebels repeatedly launch 
missiles and armed drones into Saudi Arabia, threatening 
innocents, including Americans.
    But I am also troubled by the numerous civilian deaths in 
this war, including from Coalition airstrikes. I firmly believe 
we can support our strategic partners while also insisting they 
prosecute that arm more responsibly. And for this reason, I am 
working with Chairman Engel on legislation conditioning certain 
future arms sales with the goal of helping stop civilian 
deaths.
    We are here today because the State Department recently 
certified to Congress that the Iran threat constitutes an 
emergency, requiring the immediate provision of certain defense 
systems to Saudi Arabia, the UAE, and Jordan. This rarely used 
emergency authority bypassed Article I congressional review of 
these sales. The founding fathers put Article I first, which 
represents the American people, before Article II in the 
Constitution, and they did that for a reason.
    There have been times when international emergencies 
required expedited sales. For example, President George H. W. 
Bush used emergency authority in the immediate wake of the 
Iraqi invasion of Kuwait. President Reagan made such a 
determination in 1984 during the Iran-Iraq War. In both of 
those cases, critical weapons were delivered very quickly 
during hot wars.
    But as I said last month, the recent use of this emergency 
authority, in my judgment, was unfortunate. Of note, some of 
these sales will not be ready for delivery for over a year. I 
would have preferred State to adhere to the formal statutory 
30-day congressional review process to expedite these 22 arms 
sales, where a resolution of this approval process could have 
been an option.
    In fact, I had a very good conversation with Ambassador 
Bolton about a week or two before this decision was made. I 
discussed the legislation the chairman and I were working on, 
and I thought things were actually going in the correct and 
proper direction.
    I do share the Administration's frustration that some of 
these informal holds of these arms sales for over a year was a 
little too long. In your written statement, you have said that 
these arms sales are necessary to ensure the United States 
remains a credible supplier of choice for our partners, rather 
than Russia and China. And I agree with that.
    Last week, it was reported that Saudi Arabia, however, has 
been buying ballistic missiles from China. And while we are not 
discussing ballistic missile technology today, it is disturbing 
if our allies are depending or deepening their defense 
relationships with our adversaries, like China.
    Assistant Secretary Cooper, I want to thank you for your 
service to our country in so many ways, and some ways we cannot 
even discuss here in public. And I look forward to hearing your 
views on the threat, the decisionmaking process in designating 
this an emergency, and the details on these 22 weapons sales.
    And with that, Mr. Chairman, I yield back.
    Chairman Engel. Thank you. I want to thank the gentleman 
from Texas, our ranking member.
    Our witness this morning is Mr. R. Clarke Cooper, Assistant 
Secretary of State for Political-Military Affairs. Mr. 
Assistant Secretary, thank you for coming. I recognize you for 
5 minutes to summarize your testimony. Everything will go into 
the record, including your written testimony as well.
    Assistant Secretary, the floor is yours.

    STATEMENT OF THE HONORABLE R. CLARKE COOPER, ASSISTANT 
         SECRETARY OF STATE, POLITICAL-MILITARY AFFAIRS

    Mr. Cooper. Chairman Engel, Ranking Member McCaul, members, 
in recent days, neutral shipping has been attacked. By 
providing a deterrent against hostile actions, this transfer 
lowers the risk of a broader conflict. The determination 
reflects the United States' grave concern with the growing 
escalation in the Gulf and its implication for the security of 
our friends in the region.
    These words could precisely describe the context of the 
recent emergency certification this hearing has been convened 
to discuss but they are actually from a State Department 
statement from 1984. Then, as now, Iran's Revolutionary 
Government threatened international shipping in the Gulf and, 
through its proxies, supported attacks on American interest in 
the region, resulting in the deaths of 241 American 
Servicemembers in Beirut. Then, as now, our partners required 
the reassurance provided by an American demonstration of 
resolve. And then, as now, the Administration took steps to 
deter war, not to bring it closer.
    In his recent certification, Secretary Pompeo advanced a 
set of arms transfers to support our partners in this current 
crisis. These capabilities include aircraft support, munitions, 
logistic services, unmanned intelligence, surveillance, and 
recognizance platforms, training, and advisory services. None 
of these constitute introductions of fundamentally new 
capabilities to the region. None fundamentally altered the 
military balance of power. None are in a nature or category 
that Congress has not previously reviewed and approved for 
these particular partners.
    The Secretary's decision to exercise his statutory 
authorities under the Arms Export Control Act reflect the 
current threat from Iran. But before speaking to that, I would 
like to describe the broader context.
    First, in today's world, our partnership are more vital, 
not less so. We must ensure our partners that they have the 
capabilities, the systems, the communications, the 
intelligence, and the training to play their particular role in 
maintaining the stability and security of their regions.
    Our adversaries recognize the importance of our 
partnerships and have adopted purposeful strategies of trying 
to disrupt them at all levels, including in terms of our 
security cooperation. For instance, by seeking to replace us, 
as has been noted, as suppliers of choice. Congress is very 
much aware of this, which is why you passed the Countering 
America's Adversaries Through Sanctions Act in 2017.
    At the same time, we deeply appreciate the particular 
considerations that relate to arms transfers. Many members, 
many Americans, are concerned about the use of the arms we 
provide overseas, including in the context of the Yemen Civil 
War. These concerns are appropriate and we share them.
    From the beginning of the conflict, we have maintained that 
a political solution is urgently needed and we have supported 
the United Nations-led effort working toward that objective. 
Moreover, what makes America stand out from many foreign 
suppliers of defense material is the premium we place on 
ensuring that our capabilities are not contributing to gross 
violations of human rights.
    We have worked with the Saudi-led Coalition over the course 
of its operations to reduce the occurrence of civilian 
casualties. Our support in this regard has ranged from the 
provision of training on targeting, and the supply of more 
precise munitions, to mentoring and advising the Coalition on 
best practices, lessons learned, and integrating complex data 
into a system that is specifically designed to reduce civilian 
casualties.
    We have also provided higher end legal training on the laws 
of our own conflict and have directly and regularly engaged 
both military and political leadership in this topic. So this 
is the context: The need to remain engaged partners, to ensure 
we remain their primary security partner, and to make clear 
that we support our partners in the defense of their realms, 
and the security of their regions, and to deter our shared 
adversaries from disrupting those objectives.
    This mention of adversaries brings me back to the emergency 
cited by the Secretary in his certification--Iran and its 
maligned activities. As Secretary Pompeo stated publicly, and 
as he and acting Secretary of Defense Shanahan briefed the 
Congress, we have seen increased threat streams from Iran, 
relating both to U.S. and partner equities in the region. These 
troubling and escalatory indications and warnings from the 
Iranian regime have prompted an increased U.S. force posture in 
the region. The Iran-backed Houthis publicly threatened to 
increase operations, targeting vital military targets in the 
United Arab Emirates, Saudi Arabia, and the Saudi-led Coalition 
positions in Yemen.
    Add to this, as Ambassador Bolton recently described, 
Iranian attacks on commercial shipping off the coast of the 
United Arab Emirates, the unmanned aerial vehicle attacks on 
pumping stations of the Saudi East-West pipeline, and the 
rocket fired into a park just about a kilometer from our U.S. 
Embassy in Baghdad just a few days after that. And just today, 
today a Houthi cruise missile fell on the Arrivals Hall of the 
Saudi Arabia's Aba Airport--International airport, reportedly 
injuring 26 civilians.
    These provocative actions mark a new evolution in the 
threat Iran poses to the region to our partners and to our own 
national security, including the security of hundreds of 
thousands of Americans and their families who live and work in 
the Gulf States. It is this situation, the significant increase 
in both the intelligence of threat streams and clear 
provocative and damaging actions taken by Iran's Government 
that the Secretary did determine it constituted an emergency.
    It is this confluence of strategic priorities, the vitality 
of our bilateral relationships and partnerships, and the urgent 
regional threat that drove him to make the certification.
    Before closing, I would like to make one further point. In 
the process of his confirmation and my own, the Secretary and I 
each provided Congress with our commitments to the 
congressional review process for arms sales. This commitment 
stands. I value deeply Congress' role in the review of the arms 
transfer process. I take pride in the depth and the detail of 
the working relationship that we have with the committees in 
the course of this process. I do not view the Secretary's 
certification as setting aside this process. Indeed, by carving 
out a certain set of cases in the context of a statutory 
authority long-granted by Congress, the Secretary's action is 
an affirmation of the value we place on our engagement with you 
on arms transfers and broader security assistance issues.
    Mr. Chairman, in 1984, Ambassador Michael Armacost 
explained President Reagan's emergency certification to 
Congress in these words. I quote: Our decisions were a prudent 
yet clear response to an escalating emergency which threatens 
Saudi Arabia and the Gulf. They satisfied a clear military 
need. In addition, we sent a political signal, both reassurance 
and deterrence. It was a measured response which promotes 
regional stability and security.
    Mr. Chairman, Mr. Ranking Member, members, political signal 
of both reassurance and deterrence, a measured response which 
promotes regional stability and security, these are the 
purposes for which President Reagan certified an emergency in 
1984 and they are the purposes for which Secretary Pompeo 
invoked the same authority just 2 weeks ago.
    Thank you and I look forward to your questions.
    [The prepared statement of Mr. Cooper follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. I thank you for your testimony.
    I will now recognize members for 5 minutes each. All time 
yielded is for the purposes of questioning our witness. And I 
will start by recognizing ourself.
    Look, Mr. Secretary, Saudi Arabia is an ally and they have 
legitimate security concerns. And Iran is not an ally and they 
are the leading state-sponsor of terrorism and have all kinds 
of maligned intentions. But it is not an excuse to cut Congress 
out of the picture. It is not an excuse to say we know better 
and, therefore, Congress is superfluous or irrelevant. It is 
really, really a bad policy to act like that.
    The Houthis are bad. They threatened Saudi Arabia and 
civilians but it does not mean we give the Saudis a blank 
check. It does not mean that we look the other way when they 
drop bombs on children in school buses. And I think there has 
to be some responsibility here, and I just do not understand 
the Administration's decision to totally cut Congress out of 
the process when we have a process that works. And I really 
just hope this does not happen again.
    The State Department has cited an increase in Iranian 
threats as a major justification for invoking the Arms Export 
Control Act emergency power provisions. I have long believed, 
again as I said, that Iran remains the greatest threat to the 
region but this appears to be a convenient excuse, a convenient 
way to get these weapon sales out the door without consulting 
Congress.
    So let's discuss the timing of these sales. When was the 
decision made to move forward with these sales under emergency 
authority? Was it before May 4th, when the White House 
announced the deployment of the carrier strike group to the 
Gulf?
    The New York Times reported last night that this decision 
was made in the spring, saying that, quote, ``Mr. Pompeo told 
State Department officials to find a way to push through the 
arms sales'', unquote. So which came first, the arms sales or 
the threat? Defense Secretary Shanahan indicated that Iranian 
threat had diminished. Does this mean the emergency no longer 
exists?
    So I understand that some of these items on the emergency 
list will take months, if not a year or more to produce. So let 
me ask you this: What kind of emergency responds in months or 
years to circumstances you claim exist right now? And if the 
Iran threat were to be reduced in some way, would you move 
ahead with these transfers?
    These are all very important questions. I hope you can 
summarize them because it really makes me more dubious in fact 
believing that the Administration, for some reason, has decided 
not to partner with the Congress in these important issues. And 
I really think that in the future the Administration should 
change its attitude and work with Congress, working with the 
American people. We are all here to serve the same country, and 
the same people, and we should not be cut out of the process 
and treated like enemies.
    So if I could get a comment on anything I have said.
    Mr. Cooper. Thank you, Mr. Chairman. I will start with the 
partnering with Congress and our communications.
    Yes, as I stated in my testimony, we value that engagement 
and want to return, and we have returned to the normal 
consultative process on arms transfers and sales. This is an 
emergency. This was a one-time event, as the Secretary stated. 
And I would note that the sales that were included in the 
emergency declaration certification had been through the 
consultative process and review with Congress.
    There is nothing new in those 22 sales, which does lead to 
your point about the release of those. On the DCS or direct 
commercial sales side of it, yes, there are immediacy of 
receival of shipment in that sense. But as to an emergency on 
timing, yes, the protracted process did contribute to the 
conditions that necessitated an emergency.
    So in some of these cases, you are right, there is going to 
be a tail or a logistical latency on them. That tail or 
logistical latency has been built in because of the protracted 
process. But again, consultation, review period with Congress, 
that is desirous for all parties; for not only the legislative 
branch but for the executive branch. It makes our transfer 
stronger. It actually provides accountability to the partners 
that are in the receipt of that.
    As for the timing of the emergency declaration, similar to 
the timing of the release on imposition of sanctions, the 
emergency declaration or that certification is in the 
Secretary's toolkit. It is a tool of diplomatic deterrence or 
prudential diplomatic deterrence. To say that it was 
preconceived is like saying that we are predetermining 
sanctions being issued to a particular partner. There are 
partners right now that we are looking at that we are reviewing 
potential imposition of sanctions.
    In this case, because of the uptick of the threat streams 
that were being reported, risking not only equities but persons 
made it more of a priority.
    Again, I would be happy to talk more in a closed fora about 
those threat streams. But talking about timing, timing 
certainly was of the essence in regards to sending a message. 
There were three audiences on that message, Mr. Chairman, one 
being Tehran, sending a message of deterrence to Tehran. The 
other one, not mutually exclusive, is sending a message to our 
partners to reassure them that we are with them shoulder-to-
shoulder, that we do value their sovereignty, that we do value 
their role in the greater region that they play to protect our 
interest and equities.
    And then finally, one that has been touched upon here 
already today, a third audience was our near-peer adversaries. 
Our national security strategy is very transparent, so 
transparent that our adversaries see it as a way to also 
communicate in a fashion where they see opportunity. And what 
we do not want to do is we do not want to create conditions 
that would provide opportunity for our near-peer adversaries.
    So there was a certainly a shared aspect on this 
declaration, the primary one being, Mr. Chairman, was the 
immediacy of the threat streams that were coming and know that 
the threat has not abated.
    Chairman Engel. Thank you.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman. We certainly hope this 
is a one-time exception. I think there is a process. This 
emergency was declared. There is an informal notification and a 
formal notification. Typically, when you start the informal 
process, it is an opportunity to negotiate and work things out. 
Usually that takes place within a matter of a month or two. 
Some of these holds have been in place for over a year. So in 
some respects, I certainly understand the frustration with the 
State Department.
    Having said that, getting the classified briefing, you know 
the top Marine general calling on his proxies to prepare for 
war, and our top commander in the region calling the threat 
imminent, can you tell me what impact the authorization of 
these sales by the Secretary have had on these threats?
    Mr. Cooper. In an open fora like this, I can tell you that 
there is a postured response. Again, our emergency declaration 
is just, I mentioned, it is a tool. It is not the only tool 
that our Government has. There was citation earlier this 
morning about our forced posture in the region. That, also, is 
a tool.
    It does not mean that the threat has abated but it sends a 
very clear message to Tehran. But equally important, we are 
reassuring our partners that we have not abandoned them or that 
we have left them to carry the full load of responsibility in 
the region.
    Mr. McCaul. And do you think these precision-guided weapons 
that have been now sent, that certainly would help prevent some 
of the collateral damage that we are seeing.
    Mr. Cooper. Precise targeting, actually, would actually 
mitigate civilian casualties. It is not just the precision 
weapons. It also comes with the training.
    One thing that Members who have been involved in the 
informal review process of not just precision-guided weapons 
but any platform, what makes us a preferred partner, not just 
in the Gulf region but globally, is we do not just provide a 
munition. We do not just provide a platform. We provide a 
partnership. And a partnership comes with that a long tail on 
training, capacity building, getting our partners to not only 
have the system but actually operate in a way that we would 
find it acceptable by our standards, by USG standards.
    When I say training, that also is a matter of understanding 
the application of these things. It includes teaching them 
about the Law of Armed Conflict. It also helps them better 
understand what would be considered no-go/go for the targeting 
process. So it is not just a matter of conveyance of a 
munition.
    Mr. McCaul. Now this gets to the emergency issue. Out of 
these 22 sales--I do not know if you can answer this off the 
top of your head_but how many were ready to deliver in less 
than 60 days, or have already been delivered in theater?
    Mr. Cooper. Thank you.
    I will do a quick little one-on-one. So foreign military 
sales and when we are doing the letters of offer, there is a 
process there that can take 20 to 30 days. Direct commercial 
sales, however, to your point on the immediacy and it is the 
point that the chairman raised as well, to paraphrase a 
colloquialism, our DOD colleagues refer to pushing then--
pushing munitions is happening now and actually has happened 
prior to this hearing.
    Mr. McCaul. How many would take over a year or two to 
deliver?
    Mr. Cooper. It depends on if it has not been built or 
manufactured. But if anything is what is called off-the-shelf, 
it is already moving.
    Mr. McCaul. And then finally, how many have not even been 
built yet?
    Mr. Cooper. I would have to followup on that in detail.
    Part of the difference is is if it is a direct commercial 
sale, we do not have, State Department does not have 
jurisdiction on a direct commercial sale export. It is on the 
FMS cases that we have that direct jurisdiction over.
    Mr. McCaul. Well and my last point is that the chairman and 
I are working on legislation, as we had prior to this 
announcement, to authorize the sales. We understand the policy 
of arming the Saudis, and the threat that Iran poses, and the 
alliance between the Saudis and Israel. And we understand the 
Houthi proxy in Yemen is a threat to Saudi Arabia, and Israel, 
and the region, and to the United States.
    We just have an issue with the process. And we think 
consulting with Congress is always the better route. I 
understand, in this case, there is an emergency. We are 
continuing our work in good faith on legislation to address 
future sales. And we hope that we can work with the State 
Department on this legislation, and I talked to Senator Risch 
yesterday about this as well, something that I think would be 
practical common sense that could pass the House, Senate, and 
be signed into law.
    And with that, Mr. Chairman, I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    Mr. Sherman.
    Mr. Sherman. I do agree with you that the Houthi are evil 
and supported by Iran. At the same time, you tell us that with 
more accurate targeting techniques and technology, Saudi Arabia 
will hit fewer hospitals. That assumes they are not trying to 
hit hospitals. I hope your assumption is correct.
    You tell us that you want to send a message with this to 
our adversaries--to your adversaries. It appears as if your 
adversary is Congress and the message is loud and clear. You 
will stretch every statute beyond its breaking point in order 
to make Congress irrelevant to the decisionmaking process.
    The arms sales you are talking about are controversial. 
There is significant opposition in Congress. And rather than 
confront that, you go around it. And so the issue is not what 
is our foreign policy but whether we protect and defend the 
Constitution of the United States.
    We have heard some criticism from both sides of the aisle 
on this. The fact of the matter is if Congress were united, we 
could stop this. We could go right now to those on the floor 
and demand that the rule be changed, and we make an order and 
protect an amendment to the Foreign Ops approps bill and the 
Defense approps bill pending on the floor today, requiring--and 
we could require that any transfer of weapons to Saudi Arabia 
or the Emirates get an affirmative vote by Congress. We could, 
at minimum, just repudiate this phony declaration of emergency.
    And so I will yield to any Republican member that wants to 
join me in that effort.
    As you see, Congress is divided. You have defeated your 
enemy.
    Now this declaration of emergency is bogus. A court may 
very well decide that in a few years. And if this one is not, 
you can imagine that at some future time, there would be a 
bogus declaration.
    Is there any personal liability that anybody in the 
executive branch faces if they just decide to ignore the Arms 
Export Control Act or come up with absurd definitions designed 
to claimed to be adhering to it when a court determine that 
they had violated? Can you basically do anything you want, as 
long as you can say it with a straight face, as a practical 
matter? Or do you face--or do you or anyone else in the 
Administration face any civil or criminal liability?
    Please limit your answer to that question.
    Mr. Cooper. Thank you, Congressman Sherman.
    So no, the short answer is no. We are in compliance with 
statute.
    Mr. Sherman. Well, let's say that in some future decision 
you were not in compliance with statute because we do not--
would you face any liability or can you violate the statute 
with impunity should you or your successor choose to do so?
    Mr. Cooper. I am not aware of anybody, regardless of branch 
of government, being able to violate statute at will.
    Mr. Sherman. But what is the outcome if some successor of 
yours decides to violate the statute?
    Mr. Cooper. I am not going to gander that. I am going to 
focus on what is legal and what is not legal, sir.
    Mr. Sherman. I would hope that you would get legal advice 
on this----
    Mr. Cooper. Yes.
    Mr. Sherman [continuing]. Because as extreme as this 
Administration is, it is quite possible that a court would 
determine that you folks have gone too far, that you have 
violated the law, that there is not a good faith emergency, and 
that those involved are deliberately, intentionally violating 
the Arms Export Control Act.
    Mr. Cooper. Congressman Sherman, this is in compliance with 
the Arms Export Control Act.
    Mr. Sherman. You think you are complying. Many of us do 
not. And who knows what the determination of what some future 
tribunal or court would be? We have swung very far in the 
direction of a Presidential power.
    So the question here, it appears as if you have determined 
that the emergency is that Congress will not agree with you.
    Mr. Cooper. No, sir.
    Mr. Sherman. Well, you told us what you wanted to do. We 
did not approve. And so you declared an emergency.
    If Congress had promptly agreed with your plans, would 
there be an emergency?
    Mr. Cooper. Yes. So an emergency are conditions-based--and 
I am glad you asked that question, Congressman Sherman--the 
conditions that we have discussed here today and we can discuss 
further in another fora. Not only were the threat streams 
emanating from Tehran, there were the conditions of the 
readiness of our partners, ensuring our partners that we stand 
with them, and then there were also the conditions of looking 
at near-peer adversaries looking for opportunistic----
    Mr. Sherman. Right and so you decided that whatever policy 
you want to carry out must be carried out and that anything 
that prevents you from doing it, even for a short time, 
constitutes an emergency. Please read the Constitution.
    I yield back.
    Mr. Cooper. Thank you, sir. I have been swearing to support 
the Constitution for over 20 years in different capacities in 
my career. And Congress is a partner. We are partners with 
Congress. We will continue to work with Congress on reviews.
    Chairman Engel. Thank you, Mr. Sherman.
    Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman.
    Thank you, Secretary Cooper, for being here. If you can 
generalize, how long have these sales been in the works?
    Mr. Cooper. Thank you Congressman. So not each sale but 
many, there are a number of sales that have gone up to 18 
months. So it has been raised here that this is where we get 
into partners being concerned, not surprising, through 
engagements not only with Members of Congress but in bilateral 
discourse, there has been concern about our ability to be 
standing shoulder-to-shoulder with partners who are carrying a 
number of equities for us in the region.
    Mr. Perry. And during that 18 months or throughout that 18 
months, has Congress been made aware of the Administration's 
intent to make the sales?
    Mr. Cooper. Yes, Congressman. In fact, going back to the 
process at large, the informal review process includes a 
lengthy consultation period. I think a number of members 
already cited the normal turnaround time, depending if it is a 
NATO or non-NATO partner, it can be anywhere from 20 to 30 
days. That is usually when issues may be flagged or identified 
by the Congress that we are able to address.
    Why we have that period of time and why it is done in a 
fashion that is just between the Department and Congress is 
because these are issues that need to be resolved inside the 
USG, inside U.S. Government so we are not exposing our partners 
to our own internal scrutiny. But normally, it could be up to 
30 days. In these cases, we were reaching months, if not close 
to 2 years.
    Mr. Perry. Eighteen months is a little longer than 30 days. 
If you know, how long ago did Senator Menendez object?
    Mr. Cooper. Again, some of these cases go back to over 18 
months.
    Mr. Perry. And is the fact that Senator Menendez objected 
testimonial, to a certain extent, to the fact that the 
Administration is complying with the process because, if you 
were not complying with the process, Senator Menendez would not 
have had the opportunity to object?
    Mr. Cooper. And to that point, we--after the emergency 
declaration, we returned immediately to that process. So there 
are cases that are currently under informal review right now 
before the Congress right after the declaration. So the process 
has not stopped, essentially.
    The declaration was a highlight of 22 particular cases but 
the process of informal review, tiered review notification 
never stopped.
    Mr. Perry. Did you, Mr. Secretary Cooper, did you receive a 
request from this committee to conduct a classified briefing 
regarding these sales and the particular circumstances 
surrounding the sales from a threat perspective prior to--that 
we would have that briefing prior to this hearing?
    Mr. Cooper. Congressman, I know that we had offered a 
classified briefing. The offer still stands. Happy to come to 
come back either in a closed hearing or in a briefing setting. 
We were not able to secure one. But again, happy--if there is 
interest, happy to provide that.
    There is threat stream data that is worth noting. There was 
citation of some of that by Central Command General McKenzie. I 
think it was cited here but in an open fora, we cannot go there 
right now.
    Mr. Perry. So you made the offer but did the committee 
request a classified briefing regarding the actions 
precipitating the emergency declaration regarding these arms 
sales prior to this hearing?
    Mr. Cooper. No, sir, not that I am aware of.
    Mr. Perry. Would you say that this move is based on new 
intelligence received regarding Iran in particular?
    Mr. Cooper. The short answer is yes. A little bit more to 
that is that there were evolving threat streams. I think one 
thing that we cannote is that there is always a persistent 
threat, as several members have noted that here today, that is 
not going to abate, not just direct threats but through proxies 
outside of the region, threats to our equities outside the 
region. That is not new.
    What was new was the particular uptick in the threat 
posture.
    Mr. Perry. Well, thank you, Secretary Cooper. And I, for 
one, if I have the authority to do so, I am requesting a 
classified briefing at your convenience and availability 
regarding the action precipitating the sales. And if no one 
else wants to attend, I will be happy to sit down with you 
myself and do that. So I would like to work that out with your 
schedule.
    I just want to remind all my colleagues that we are here 
for the United States of America, for the security of the 
United States of America, and remind my colleagues on the other 
side of the aisle that when I brought up the fact that the IRGC 
was driving around in M-1 tanks, American-made M-1 tanks, no 
one here seemed to have a problem with that during the last 
administration.
    When the last Administration sent pounds of cash to a vowed 
enemy of the United States, nobody on the other side of the 
aisle seemed to have a problem with that.
    And when the last administration crafted the JCPOA to 
expressly exclude Congress, nobody on the other side of the 
aisle seemed to have a problem with that process either.
    I yield.
    Chairman Engel. I just want to quote my dear late mother, 
who used to tell me two wrongs do not make a right.
    Let me call on Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Mr. Secretary, one thing that I think that all Members of 
Congress do agree upon that Iran is a bad actor, and that Iran 
has done things, and continues to do things that threatens the 
region.
    One thing that I think some Members also know, maybe not 
everyone articulates it, that Saudi Arabia also does not have 
clean hands. And they, too, at times, malign the region. And 
they too bring some--because when I think about Wahhabism, that 
is a threat to us. When I think about who were in those planes 
that--I come from New York--that destructed the World Trade 
Center, they were Saudi Arabians.
    When I think about the tragedy that continues to take place 
in Yemen, and the killing of innocent people, in that regard, I 
believe it is our responsibility to also hold them in check. I 
think that it is important that when you see the killing of an 
American columnist, that we should say something and do 
something in that regard.
    Now it seems to me that the Administration realizes that 
also because the Administration--you know I just saw the 
President yesterday talk about a beautiful letter that he 
received from Kim Jong-Un. Kim Jong-Un does not--I believe in 
talking to our adversaries but Kim Jong-Un does not send 
beautiful letters when we see him killing his own people and 
starving his own people, as a similar crisis is continuing to 
take place in Saudi Arabia.
    So the concern that Members of Congress have had was about 
how our partners were using the weapons that they received, and 
how that was fueling the conflict in Yemen, and creating the 
worst humanitarian catastrophe possibly in the world. These 
concerns still have not disappeared. The administration did not 
come to Congress to ask how to move forward with these sales 
and did not make any policy changes to assuage our concerns.
    The Administration could have sent the sales to Congress 
under the regular notification period, allowing Congress to 
disapprove, 30 days to disapprove. Three days prior to the 
emergency declaration, there was a classified meeting and the 
Secretary was there. He did not mention at all that there was 
an emergency situation. Yet, just 3 days later, all of a sudden 
there was an emergency situation. It seems evident that that 
was utilized to get around Congress because some in Congress do 
want to hold everyone accountable for their actions and to make 
sure that we are setting a standard.
    My concern and question when I just look at the number of 
mortar bombs, 15,000 mortar bombs that may end up in the hands 
of militants in Yemen and may be used against civilians. So my 
one question to you is: Why in the world would a regime need 
15,000 mortar bombs in the scenario that we are talking about?
    Yes, sir.
    Mr. Cooper. Thank you, Congressman Meeks. To start with, we 
will start with the munitions and weapons. As cited in my 
testimony, we have partners that are under direct threat. They 
are not just carrying our equities or our water. We just had an 
attack by the Houthis on a Saudi Arabian civilian international 
airport. So it is not just a matter of defense. It is a matter 
of posture in Yemen.
    As you noted, the Houthis are Iran-sponsored. So this is 
not just a matter of a civil war. This is addressing a greater 
threat.
    As to the threat streams, it is ever-evolving. So yes, 
Congress was briefed on the threats by State, by Defense, and 
yes, there was a constant assessment process taking place 
before that briefing, after that briefing; even today, the 
intelligence community with the executive branch monitors that 
threat for changes in posture. So it did necessitate the 
emergency declaration.
    And we are with you on accountability. Holding a partner 
accountable, any partner, does not preclude us from working 
with a partner. If anything, detaching ourselves from our 
partner, removing ourselves from our partner puts at risk 
ensuring that accountability.
    So no, having a security cooperation status with a partner 
does not mean we do not hold them to account on human rights. 
It does not mean we do not hold them to account on rule of law. 
And it does not mean that we do not hold them to account on 
civil society.
    Chairman Engel. Thank you, Mr. Meeks.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    Secretary Cooper, thank you for being here. And I think the 
question has been raised about why the Administration took this 
route versus the normal route and I think that has been 
covered.
    I realize you may not be able to say, and you have already 
stated that you cannot say much in this setting, and I ask the 
chairman to hold a classified briefing with this committee, if 
the chairman would do that, to second what Mr. Perry said, 
because I think there is confusion. And if we are not united as 
a government, it shows confusion and weakness to any adversary 
we may have. And I think the best thing that the Administration 
can do is work to get all of us onboard of why because I 
question some of it, too, and I want to support the 
Administration. But without having a SCIF-type of briefing, 
what we have over there at the Capitol Visitor Center is not 
real in-depth. And so I ask the chairman to hold that as soon 
as possible, so that we can be on the same side of this.
    We have certainly learned that when an administration moves 
past or bypasses Congress, like the Obama Administration did 
with the JCPOA and passed over a billion dollars to Iran, the 
consequences of that take a long time to go back and correct. 
And we do not want to make that mistake.
    We have heard reports of arms going into the hands of 
people we do not want them to. And what guarantees do we have 
that this equipment will not get into the hands of radical 
Islamic terrorists like the five or six different ISIS 
terrorist groups that are in that region?
    Mr. Cooper. Thank you, Congressman Yoho.
    And yes, I would reaffirm that I would be happy to come 
back to have a further conversation on the classified setting.
    As to the point on the delivery of systems and weapons to 
coalition partners, this is part of our relationship in a 
bilateral sense of the advocacy and the credibility of what 
they are applying, where they are applying it, and who has 
actual command and control of whatever weapon or system is in 
place. That is constantly part of the program.
    I earlier mentioned that when we provide a munition or an 
arms transfer, it does not just stop at the transfer. It goes 
come with a longer tail, not just on providing capability and 
sustainment, but also accountability as well. So it is not 
limited to just provision of a good. There is an accountability 
aspect there.
    This is actually part of the portfolio in my part of the 
Department is when we actually do followup. In cases, we do 
precondition future transfers based on their ability to account 
for munitions or arms.
    Mr. Yoho. Let me interrupt there because I have got reports 
of radical Islamic terrorists having MANPADS that went to Saudi 
Arabia and now they have them. We need better safeguards.
    And I guess a more direct question is what information have 
you requested from Saudi, and the UAE, and Jordan about how the 
defense articles transferred as part of these sales will be 
used, so that we have checks and balances? Because we suffer 
the consequences of that. If you kill one radical terrorist, 20 
get born out of that. And we are the ones that our name is on 
that ammunition and they know it.
    Mr. Cooper. Thank you, Congressman Yoho. It is incumbent 
upon us from a nonproliferation aspect, a protection, a command 
and control of those elements, those arms, those munitions.
    As to talking about certain aspects of that from a 
bilateral sense, I would like to save that for when we are 
together in a non-open fora. But I would like to add that on 
the MANPADS issue, Members may or may not know that there is an 
interagency task force on the tracking of, the decommissioning 
of, knowing where they are in the globe. That interagency task 
force actually is housed, not only at the Department of State, 
but it is within my part of the Department. So we do have 
jurisdiction on that specifically from an interagency 
standpoint. I am happy to talk about that further.
    Mr. Yoho. All right, thank you.
    And one more important question. Do these sales threaten 
Israel's qualitative military edge and has Israel expressed any 
concerns about these sales?
    Mr. Cooper. I can tell that on any sale, not only these 
sales, every sale, QME is part of the analytical review 
process. I do not want to talk into detail about our bilateral 
communications in an open fora but, with every sale, as you 
mentioned, QME is an assessment factor.
    Mr. Yoho. Thank you for your time and your service.
    Mr. Cooper. Thank you, sir.
    Chairman Engel. Thank you, Mr. Yoho. Mr. Sires.
    Mr. Sires. Secretary Cooper, thank you for being here 
today.
    You know following up on the concerns of the transfer of 
arms, that we make sure it does not wind up in the wrong hands, 
I think this is why the process of going through Congress and 
making sure that we are part of it is important. Because at the 
end of the day, when these arms are found with al-Qaida, like 
they were in the past, you know they are going to come to us 
and say well you did not supervise this, you did not keep an 
eye on this, and we have to answer to the public because they 
know there is a process by which we approve these arms sales.
    So at the end, it just seems like the Administration always 
likes to bypass Congress. And then I go back to my district and 
I have to answer why do they think that it is important for 
them to just go about doing business without the approval of 
Congress. One of the most important things in this country is 
the fact that we have checks and balances.
    So you know, let's get with it. Let's go back and tell them 
that hey, we are part of this country.
    And the other issue that I have, are they running out of 
ammunition? Are they running out of arms, the Saudis, that we 
have to do this in an emergency?
    Mr. Cooper. Thank you, Congressman. As to talking about 
particular readiness and capacity posture, I do not want to 
talk about that in open fora. But what I can say in an open 
fora is that reassurance be provided to not just Saudi Arabia 
but the other Gulf partners in the emergency declaration was 
not just the message. There was the material aspect of it. But 
to particular readiness and capacity issues on any bilateral 
partner, we would not want to have in open fora.
    And I am with you on the relationship with Congress. This 
is why I emphasized in my testimony the value of having the 
review process. All these cases have been under congressional 
review for quite some time. It does not preclude any review of 
any future cases. And we did, as soon as the one-time 
declaration was issued by Secretary Pompeo, returned to the 
normal review consultative process with Congress.
    Mr. Sires. I always get a kick out of these classified 
briefings because it was supposed to be classified the type of 
arms that we are selling to the Saudis. I mean I think 
everybody in the world knows what is going there. So how 
classified do you do that when everybody seems to have a list 
of what kind of arms they are getting?
    Mr. Cooper. The sale, the transparency aspect is not 
classified. What is classified is when we talk about any 
partner's capacity of readiness. We certainly would not want an 
adversary to know the strengths or weaknesses of any of our 
partners.
    Mr. Sires. Well, Mr. Secretary, all I can say is keep us 
informed. It seems to be that this Administration has a habit 
of just doing things without informing or not even turning 
information over to the Congress that we need to make our 
decisions. It seems that we constantly have to go to court. 
Some of the other committees have to constantly go to court to 
get information. It is like pulling teeth with this 
Administration, information that belongs to us so we can make 
our decision. I know you do not have an answer to that.
    Mr. Cooper. Well, I do. All the information, as you 
mentioned, there is no secret about the cases here because we 
do operate in a transparent fashion. So the cases have been 
under congressional review, in some cases, almost 2 years. I do 
not know how more consultative we can be in that sense. This is 
what probably contributed to the Secretary's decision point, 
the primary one being the uptick in the threat streams.
    But the process has been in place. We value the process. We 
are not walking away from the process but in this particular 
case, an emergency necessitated a declaration to move forward.
    Mr. Sires. And we all get the fact that Iran is a bad 
actor. And we all understand, at least I understand, how 
important it is to make sure that Israel is not overpowered by 
Iran and his minions. So, it is important. Thank you.
    Chairman Engel. Thank you, Mr. Sires.
    Mrs. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman.
    And thank you, Secretary Cooper, for your time and 
certainly for your service and also, at the beginning when we 
were all casually talking, your offer to bring this committee 
together in a closed and classified setting. So I appreciate 
that very, very much. And I think it would do much good because 
I much agree with my friends across the aisle and colleagues on 
this side of the aisle that oftentimes what happens over at the 
CVC is inane.
    So while I understand the strategic imperative to reassure 
regional partners standing against an aggressive Iran, I am 
seeking to better understand the Administration's decision, I 
think we all are, to sidestep normal processes, especially 
giving ongoing reports, frankly, of Saudi human rights abuses; 
very important to me.
    Russia remains, sir, the largest arms supplier to the 
strategically important Asia-Pacific region. How do the pending 
arms sales to partners in the Middle East effect long-term 
efforts to convince Asia-Pacific countries to buy American?
    Mr. Cooper. Thank you, Congresswoman Wagner. I actually 
just came back from South Asia and there was some honest, if 
not difficult, conversations with partners about their current 
status, their wanting to have a more deep, fulsome relationship 
with the United States. However, they needed to find ways to 
off-ramp some legacy requirements or legacy equipping from, 
say, Russia.
    Earlier in this hearing, I referenced in my testimony 
CAATSA sanctions.
    Mrs. Wagner. Right.
    Mr. Cooper. That is a tool. That is a tool that Congress 
provided the Administration. It is certainly a tool that is 
available in any of our partnerships. Again, being in an open 
fora, I do not want to go into detail where we are looking for 
that to be applied but it is certainly something that having 
that as a tool factors in our discussions and negotiations 
bilaterally with our partners.
    Mrs. Wagner. Well I am comforted to know that you were 
there and that you are having these discussions. And I look 
forward to perhaps some more detail in that regard.
    So if, as you mentioned in your testimony, none of the 
sales would alter the military balance of power in the region, 
why are emergency procedures necessary, Mr. Secretary?
    Mr. Cooper. Yes, again as noted, these were not new sales. 
We are not introducing new technology, new capabilities. What 
made it an emergency was a confluence of these conditions.
    So when one looks at the conditions not just on where our 
partners are or where they assess we are, there was the 
immediacy of the threat streams emanating from Iran. So the 
direct threats, not only to our interest, but to our partners 
as well. Couple that being able to reassure our partners that 
we are still with them and then also add to the layer, also 
referred to here earlier, of sending a message to our near-peer 
adversaries that do not take advantage of the current threat 
posture in the region; we are standing with our partners.
    Mrs. Wagner. Secretary Cooper, you explained in your 
testimony that China and Russia are, I believe you called them, 
secondary audiences for May's notification. Can you explain how 
the emergency notification advantages the United States in 
competition with Russia and China?
    Mr. Cooper. Yes, thank you. Russia and China are extremely 
aggressive in their advocacy for sale, pushing their arms 
munitions to anybody. They usually do it at a cut price, cut 
rate. They certainly do not do it in a transparent fashion the 
way we do it.
    It is unique that the United States arms transfer process, 
by statute and by policy, is done in such a transparent 
fashion, not only for our accountability to the taxpayer, but 
also our accountability to a partner who we are investing in.
    We also, as I mentioned, have a long what I would say tail 
of support with our sales that is not replicated by our near-
peer adversaries. We provide not just training sustainment; we 
are with them along the way. And it is important to factor in 
in that training sustainment, it is inclusive of human rights, 
Rule of Armed Conflict, making sure that our partners are using 
these systems in a way that we would find appropriate from our 
standards.
    Sending that message to our near-peer adversaries is to say 
do not take advantage of a situation in a particular conflict 
area and by no means think that we are stepping away from a 
partner who we are working with, who is not only protecting 
their sovereignty and their region, they are carrying equities 
on our behalf, on behalf of American national security.
    Mrs. Wagner. Thank you for your time and your service. My 
time has expired.
    Mr. Chairman, I yield back and I look forward to our 
further discussions.
    Chairman Engel. Thank you, Mrs. Wagner.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you for being here, Mr. Cooper, Secretary Cooper, and 
thank you for your service to the country.
    You said earlier that you want to make sure that with 
actions that the Administration took like this, that you want 
to make sure the transfer appears stronger. You want to make 
sure that we are making sure our partnerships are vital. Well 
what about the partnership with Congress that is required under 
the constitution? The partnership that is there is at equal 
level of government. And how can it be perceived as stronger in 
a statement because of the actions that were taken by the 
Administration for so-called emergency when, next week, it 
appears the Senate is going to take 22 resolutions of 
disapproval and vote against this and it would only take a 
President's veto to overcome this? And you are here today in 
front of this committee asking questions that should have been 
asked and answered before this was done. How is that possibly 
making our Country look stronger when this action divides our 
Country, not only internally, but in the eyes of all those 
allies and not internationally? How can that possibly be 
stronger?
    Mr. Cooper. Thank you, Congressman Keating. Actually, 
having this hearing is stronger. Our open society, our 
discourse is a message of strength.
    Mr. Keating. I am sorry. I hate to interrupt. My time is 
limited here.
    But it is not stronger when it happens afterwards. It is 
not stronger.
    Now you have been--you know you are Assistant Secretary of 
Political-Military Affairs Secretary. So you do have some 
knowledge of the crafting of this memorandum of justification. 
Is that correct?
    Mr. Cooper. That is correct, sir.
    Mr. Keating. Now is Jared Kushner part of that? Was he at 
any meeting?
    Mr. Cooper. I am not going to talk about anything pre-
decisional but what I can tell you----
    Mr. Keating. Why not?
    Mr. Cooper [continuing]. This is a Secretary of State 
policy decision.
    Mr. Keating. Excuse me. Excuse me. You want it both ways. 
You are not going to talk about anything pre-decision and you 
are here--you cannot talk about everything after the decision. 
I mean we are here to ask questions about the pre-decision. So 
how can you sit here and say you are not going to--just you are 
dismissing us.
    Mr. Cooper. I am not, sir.
    Mr. Keating. You are just saying we are not going to talk 
about it.
    Mr. Cooper. If I may----
    Mr. Keating. Answer this question: Was in any way, 
indirectly or directly, Jared Kushner involved in any 
discussions on this? Was he involved when there was the Saudi 
Summit? Were there discussions about this? Was Jared Kushner, 
since you are in a position to know, in any way involved in 
this whatsoever?
    Mr. Cooper. Congressman Keating, what I can tell you that I 
do know is that Mr. Kushner does not have an interagency role 
in the review of these cases. These cases were done in the 
interagency process that we discussed earlier.
    Mr. Keating. The cases?
    Mr. Cooper. This is the 22 cases in the emergency 
declaration.
    Mr. Keating. What about the overall issue of providing arms 
to the Saudis? Was Jared Kushner involved in that? Do not 
define it so narrowly.
    Mr. Cooper. I am not defining it narrowly. I am talking 
about the emergency declaration that was conditions-based.
    Mr. Keating. Well just please answer my question.
    Mr. Cooper. So I can talk to you about the conditions.
    Mr. Keating. No, no, I want you to answer my question. It 
is pretty simple. You were involved in all of this. Was Jared 
Kushner involved? How could you not answer that?
    Mr. Cooper. Not in the emergency declaration.
    Mr. Keating. No, I am not asking that--in discussions with 
the Saudis about arms sales?
    Mr. Cooper. There are a number----
    Mr. Keating. This was a predicate to that.
    Mr. Cooper. Congressman, OK, I see what you are asking.
    Mr. Keating. OK.
    Mr. Cooper. On bilateral communications from Ambassador, 
country team, MIL to MIL relationships, there are a number of 
lines of communication with our partners, including----
    Mr. Keating. Please answer my question.
    Mr. Cooper [continuing]. Saudi Arabia that include a host 
of government----
    Mr. Keating. Was he involved?
    Mr. Cooper. Not in the emergency declaration.
    Mr. Keating. No, answer my question.
    Mr. Cooper. I am, sir.
    Mr. Keating. Evidently, you are not answering the question.
    Mr. Cooper. So, Congressman----
    Mr. Keating. How is that a tough question?
    Mr. Cooper. It is not. Congressman, it is not if I can 
answer it.
    Mr. Keating. This is a man that is in charge of the Middle 
East process. He has got a direct line to the Saudi leadership, 
is well-established. He has discussions all the time with the 
Saudi rules, himself sometimes in private. So tell me----
    Mr. Cooper. Congressman Keating----
    Mr. Keating [continuing]. Why cannot you answer that 
question?
    Mr. Cooper. I am. Congressman Keating----
    Mr. Keating. No you are not.
    Mr. Cooper. Congressman Keating, there are multiple lines 
of communication with our partners in Riyadh, including here in 
Washington, as well as our embassy with Ambassador Abizaid.
    Mr. Keating. I did not ask you about the multiple lines. Is 
Jared Kushner----
    Mr. Cooper. He would be one of the lines of communication 
as a government official.
    Mr. Keating. He was involved. Is that a yes?
    Mr. Cooper. No, sir, that is not what I am tracking.
    Mr. Keating. I have got 16 seconds. I can see you are not 
going to answer my question.
    Mr. Cooper. So we are talking about an emergency 
declaration that was a policy decision by the Secretary of 
State that was based on conditions----
    Mr. Keating. I am sorry, my time is up. I am going to have 
to yield back. I did not get an answer.
    Chairman Engel. Thank you, Mr. Keating.
    Mr. Curtis.
    Mr. Curtis. Thank you, Mr. Chairman. And I would like to 
personally express my appreciation to you and the ranking 
member for holding this hearing.
    I also would like to express, like many of my colleagues, 
frustration that we find ourselves here. I, too often, as a 
Member of Congress, am reminded of what it was like to raise 
six children and hear their squabbles and their differences. 
And not too different than that, I find plenty of blame to go 
around on all sides.
    As a Member of Congress, I think we are frustrated more 
than we would like with powers that we believe belong to us not 
being exercised. If I were to put myself in the shoes of the 
Presidents, I would be very frustrated if my lot was dependent 
on a dysfunctional Congress who, time after time, could not act 
together and resolve these problems, as is our responsibility.
    I would like to associate myself with the comments of both 
the chairman and the ranking member, and move just slightly 
onto a slightly different view of this issue, and talk about 
what concerns me even more, and that is the situation on the 
ground for the civilians in Yemen.
    And I would like to know, in your opinion, what the U.S. 
Government is currently doing with Saudi Arabia and UAE to 
minimize civilian casualties in Yemen, and ensure adherence to 
the Geneva Convention, and deal with the humanitarian crisis on 
the ground. In my mind, there is one justification for the 
United States to be involved in this and that is that we can 
make it better for Yemen than if we were not involved. I would 
like to hear your comments on that.
    Mr. Cooper. Thank you, Congressman Curtis.
    Yes, I will start with no question about the conditions, 
the deplorable humanitarian conditions, the heartbreaking 
conditions in Yemen. As stated earlier, we are fully supportive 
of the United Nations led political process to get resolution, 
to seek resolution in Yemen.
    As to enabling our partners to be better at mitigating not 
only civilian casualties but mitigating any kind of contact 
with civilian infrastructure, that comes with training. That is 
in place. That is in process. There are evidence in elements of 
improvement that has been reported from the field on that. 
However, decoupling ourselves from our partners puts at risk a 
greater risk of further civilian casualties.
    So it is not to say that it is going away immediately but 
the work is there. The commitment is there. Our being tied to 
our partner, our being committed to our partner helps ensure 
mitigation of civilian casualty, as well as destruction of 
civilian property.
    Mr. Curtis. Thank you. I would like to join with my 
colleagues on two points. One is to thank you for your service. 
And the other, Mr. Chairman, is to ask for further classified 
briefing so that we can better understand the conditions here 
and the type of classified briefing that would allow us to go 
into much greater detail than we frequently get.
    Thank you and I yield my time.
    Chairman Engel. Thank you, Mr. Curtis. We will talk about 
another classified briefing. Thank you.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you for 
calling this hearing on what is an egregious and legally 
questionable move by the Administration to transfer weapons to 
Saudi Arabia and the United Arab Emirates.
    Let me be clear. I believe this committee, on a bipartisan 
basis, is absolutely committed to supporting America's allies. 
We are committed to defending America from emerging threats and 
we are committed to our security. But we are also committed to 
upholding the rule of law, the Constitution, and the respect 
for human rights.
    The administration is trying to abuse the law in order to 
sell weapons to supposed allies, Saudi Arabia and the UAE. 
These are countries that are already using American-made 
weapons in a campaign in Yemen that has resulted in innocent 
civilians being targeted and killed. The justification for this 
appalling action by the Administration is a bogus emergency. 
The Administration claims that Iran poses such an imminent 
threat to our allies that emergency assistance is needed for 
Saudi Arabia and the United Arab Emirates to defend themselves.
    This is an administration that has cozied up to Riyadh, 
sweeping aside gross human rights violations, turning a blind 
eye to the Saudis taking a buzz saw to Washington Post 
journalists, and supporting an intervention in Yemen that is 
causing famine, destruction, and amounting loss of life.
    Just because you do not like the process does not mean you 
get to ignore it. In your opening statement, you noted the 
importance of them being able to send a political signal with 
these arms sales. It does send a signal and a message. It is a 
message that we abandon our principles if you write a big 
enough check. Congress does not agree and the Constitution does 
not permit it.
    So I am going to begin. We understand--Mr. Cooper, I want 
to followup on Mr. Keating's question with respect to the role 
of Jared Kushner in this process. Was Mr. Kushner in any 
meetings that you attended on this topic of arms sales broadly 
to Saudi Arabia. That is a yes or a no.
    Mr. Cooper. Mr. Cicilline, I will not talk about pre-
decisional in this fora--in this fora. But I will tell that 
from an interagency standpoint on assessment, that is not in 
his wheelhouse.
    Mr. Cicilline. Mr. Secretary, I have limited time.
    Mr. Chairman, I will ask that you direct the witness to 
answer my question.
    Chairman Engel. I will direct the witness to answer the 
question. It is a pretty simple question.
    Mr. Cooper. Thank you, Mr. Chairman.
    No. The answer is no.
    Mr. Cicilline. OK. We understand Mr. Kushner was involved 
in the Saudi Summit, where these were promised. Did he try to 
push to deliver on these promises? That is a yes or a no.
    Mr. Cooper. No.
    Mr. Cicilline. Is your testimony that documents will show 
that Mr. Kushner has no involvement in this whatsoever?
    Mr. Cooper. As I said, Mr. Cicilline, there are a number of 
bilateral lines of communication----
    Mr. Cicilline. Mr. Secretary, with all due respect----
    Mr. Cooper. But----
    Mr. Cicilline [continuing]. I am going to repeat the 
question.
    Mr. Cicilline. Is it your testimony that documents will 
show that Mr. Kushner had no involvement in this discussion 
relating to arms sales to Saudi Arabia? That is a yes or a no.
    Mr. Cooper. If it is that broad, I cannot attest to that. 
But what I can attest to is that on any--any of our partners, 
we have a long deep list of USG officials, be it executive 
branch or otherwise, including Congress----
    Mr. Cicilline. Mr. Secretary, I understand the process. I 
am asking you to answer a specific question and you literally 
are not going to.
    Mr. Cooper. I am.
    Mr. Cicilline. Does the Administration, Mr. Secretary, 
believe Iran is likely to attack Saudi Arabia or the UAE? That 
is a yes or a no.
    Mr. Cooper. I am not going to go into detail on threat 
posture here but there are threats that are ongoing, that are 
evolving against our partners, as well as us. We are not going 
to discuss--I am not going to spill classified in an open 
hearing.
    Mr. Cicilline. OK. The vast majority of the arms the 
Administration wants to sell with respect to this transaction 
are offensive weapons, correct?
    Mr. Cooper. It is not limited to that. There is 
sustainment.
    Mr. Cicilline. I did not say limited. The vast majority are 
offensive weapons.
    Mr. Cooper. There are offensive weapons, there are 
sustainment packages, there are training packages----
    Mr. Cicilline. But the vast majority are offensive. Is that 
not correct, sir?
    Mr. Cooper. A number of them are offensive.
    Mr. Cicilline. And the Saudi-led Coalition has used 
American-made offensive weapons to strike civilian targets in 
Yemen. Is that not correct?
    Mr. Cooper. Regrettably, there have been civilian targets 
that have been hit in the coalition operations.
    Mr. Cicilline. And the emergency request includes equipment 
that will not be ready, in some cases for months, in some cases 
for years. Is that not correct?
    Mr. Cooper. That is part of the emergency, Congressman, is 
that there has been a protraction of the process. So what we 
can get delivered immediately, we can but because of the 
extended review process, yes, there is an emergency because 
there has been an extension on that latency of the logistics 
tail. So there is some----
    Mr. Cicilline. It is hard to understand how an emergency 
response could take years but----
    Mr. Cooper. Those conditions help create the emergency.
    Mr. Cicilline [continuing]. I accept your representation.
    Finally, Mr. Secretary, you stated in your testimony, and I 
am going to quote you, that, and I quote, we review the 
Secretary's action, in this case, to bypass Congress as an 
affirmation of the value that we continue to place on our 
engagement with you on arms transfers and broader security 
issues, end quote.
    Well I have to say, it is a little hard to believe that we 
are supposed to take your complete disregard for the 
congressional review process as an indication that you value 
congressional engagement. This is gaslighting. You are claiming 
your ignoring this provision is your way of affirming the role 
Congress plays. That is an absurdity. Can you explain that?
    Mr. Cooper. Our communication and our engagement with 
Congress never abated. There was never a cessation of it at 
all. So we do value that communication. This emergency was a 
one-time declaration authorized through statute provided by 
Congress 40 years ago.
    Mr. Cicilline. And finally, then, Mr. Secretary, final 
question. Are there any other emergencies on the horizon that 
will so enhance your appreciation of the consultative process 
that you plan to completely bypass Congress?
    Mr. Cooper. I cannot--I do not have a crystal ball or a 
Magic 8 Ball like some people use as a paperweight on their 
desk, but I will tell you that we are constantly monitoring 
threat streams with our colleagues in the intelligence 
community. I am not going to also opine about particular 
threats that may or may not be developing, especially in an 
open fora. Why tip our hats to our adversaries?
    So I cannot say that there are not future emergencies that 
may befall U.S. interests or our national security. That 
risks----
    Mr. Cicilline. Mr. Secretary, the point of the question was 
the lack of consultation.
    And with that, I yield back, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Cicilline.
    Mr. Mast.
    Mr. Mast. Thank you, Chairman.
    I would just say I do not like to waste my time and I do 
not like to ask questions twice, as I do not believe any of my 
colleagues do. I apologize, Mr. Chairman, I do not know the 
appropriate procedural request but is there a request that we 
can make to move into a closed door portion of this hearing, 
remove individuals of staff that do not have classified 
clearances or security clearances, and attempt to get the 
answers that we seek? Is there a procedural motion that I can 
make to move into that process?
    Chairman Engel. Yes, Mr. Mast, this is an open hearing but 
we will schedule those sessions at an appropriate time, 
classified session.
    Mr. Mast. So there is no option right now to ask to move 
into a portion of this hearing be closed door?
    Chairman Engel. No, but we will, in the short-term, have 
another briefing.
    Mr. Mast. I thank you for committing to having another 
briefing in a classified session in that, as I said, I do not 
like to waste my time and I do not like to ask questions twice.
    Chairman Engel. I think, if I can just interrupt you for a 
minute, I think Mr. Secretary Cooper has to leave by about 
12:30 was it? So we would not be able to do that now but we 
will. I promise you, in the future, we will do it.
    Mr. Mast. That being the answer, I yield back.
    Chairman Engel. Thank you, Mr. Mast.
    Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    Mr. Cooper, you are the Assistant Secretary for Political 
and Military Affairs, correct?
    Mr. Cooper. Yes, Congressman.
    Mr. Bera. And PM has responsibility for ensuring the 
proposed weapon sales comply with the Arms Export Control Act, 
right?
    Mr. Cooper. That is correct.
    Mr. Bera. That is the AECA.
    Mr. Cooper. Correct.
    Mr. Bera. So you would have been aware of both the proposed 
sales and the legal rationale under the AECA.
    Mr. Cooper. Yes, Congressman.
    Mr. Bera. And that is why it was you who briefed 
congressional staff on the emergency declaration on May 24th?
    Mr. Cooper. That is correct. The declaration was issued on 
the 23d.
    Mr. Bera. Yes, right.
    Mr. Cooper. We did a formal notification and the same day 
did a briefing.
    Mr. Bera. Right, thank you. And in fact, that is why you 
are here today.
    So PM would have been involved in crafting the memorandum 
justification for the Secretary to explain the exercises of 
emergency powers under the AECA, right?
    Mr. Cooper. Yes, in a broad sense, but we cannot go into 
details of that crafting.
    Mr. Bera. OK but----
    Mr. Cooper. But it was the Secretary's decision based on 
our----
    Mr. Bera. But PM would be involved in crafting the 
justification.
    Mr. Cooper. Correct.
    Mr. Bera. Great. And that information would be reflected on 
the clearance page of that document, correct?
    Mr. Cooper. Say that one more time.
    Mr. Bera. The information of who drafted the justification 
memo would be reflected on the clearance page of that document, 
showing both who drafted it and who cleared it.
    Mr. Cooper. In a very broad, general sense, that is--you 
have identified the process.
    Mr. Bera. We will expect to get that information to us 
within the next 48 hours. And we will make sure H and your 
staff have that request, in terms of who drafted and cleared 
that document.
    Which bureau had the pen on drafting the justification 
memo?
    Mr. Cooper. I am not going to go into internal processes. 
What I can share in an open fora is that all these cases 
leading up to the declaration fulfilled interagencies----
    Mr. Bera. Just I am asking which bureau had the pen 
drafting the justification memo. That is not classified.
    Mr. Cooper. There was an interagency process for all these 
cases that contributed to the declaration but----
    Mr. Bera. That information would be reflected on the 
clearance page of that document, showing both, again, who 
drafted it and who cleared it. And again, we will expect to get 
that information to us within the next 48 hours and we will 
make sure H and your staff get that request in writing today.
    Was Marik String involved?
    Mr. Cooper. Are you referring to our legal advisor?
    Mr. Bera. Well, at the time of the drafting, was Marik 
String--at that time he was Deputy Assistant Secretary of 
State.
    Mr. Cooper. Again, Congressman, I am not going to talk 
about individuals in the Department in the interagency----
    Mr. Bera. But he worked for you at that time.
    Mr. Cooper. There are--well, there are----
    Mr. Bera. On May 23d.
    Mr. Cooper. There are hundreds of people in our bureau 
but----
    Mr. Bera. But on May 23d, he worked for you. Was he a 
lawyer in your Department during that time?
    Mr. Cooper. He is a lawyer in our Department.
    Mr. Bera. Was he a lawyer at that time? My understanding is 
that was not his position. What position does Mr. String hold 
now?
    Mr. Cooper. Mr. String is our legal advisor.
    Mr. Bera. Right. So he is legal advisor to the Department 
of State. He is the top lawyer at the State Department and he 
is in an acting capacity. When was that transition announced?
    Mr. Cooper. I do not remember but I could tell you that he 
is not the only lawyer in the Department. He is----
    Mr. Bera. He is the top lawyer in the Department.
    Mr. Cooper. That is correct. That is correct but he is one 
person.
    Mr. Bera. That transition, my understanding, was announced 
May 24th per an email from the L front office around 3:30 p.m.
    So on the very day that this emergency declaration was sent 
to the Hill, according to public records, you know this is when 
he got this promotion to be the top lawyer.
    According to public records, Mr. String was first admitted 
to the bar in 2013. And of course, when he was at PM, he was 
not there acting as a lawyer. So he has only practiced law for 
4 years or so. And as far as we can tell, none of that was in 
international law, which is central to what the legal advisor 
does.
    Do you know of otherwise?
    Mr. Cooper. I go back to that the L Bureau is a pretty 
robust bureau with----
    Mr. Bera. But he is the top lawyer at the State Department.
    Mr. Cooper [continuing]. There are lawyers, paralegals, 
just like we say, analysts.
    Mr. Bera. He is the top lawyer at the State Department.
    Mr. Cooper. That is correct.
    Mr. Bera. The website for the Office of Legal Advisors says 
they typically hire about 15 people for every 1,000 applicants, 
which is something just over 1 percent for an entry level 
position, not for the top lawyer.
    Was Mr. String promoted to this position because of his 
work on the Gulf arms sales?
    Mr. Cooper. No.
    Mr. Bera. Did his promotion have any connection to work on 
these Gulf arms sales?
    Mr. Cooper. Not that I am aware of. I would say his 
promotion to that position was based on his merit, his 
performance, and his ability to do the job.
    Mr. Bera. Who would know the justification of that 
promotion and who can we get that information to us?
    Mr. Cooper. I honestly do not know.
    Mr. Bera. OK. Well, we will expect to get that information 
to us within 48 hours as well. And we will make sure H and your 
staff has that request in writing.
    So you had no awareness that Mr. String was going to be 
promoted.
    Mr. Cooper. I am not going to talk about personnel issues 
here but I could tell you that it is not uncommon for personnel 
to do transfers within department like any other interagency 
move.
    Mr. Bera. Your testimony is that there is no documents that 
would show that you were aware of Mr. String's promotion?
    Mr. Cooper. Of course I was aware of his promotion.
    Mr. Bera. OK, great. We would like to see any documents 
that suggest your awareness of that promotion.
    Chairman Engel. The gentleman's time has expired.
    Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chairman and I appreciate your 
leadership in shepherding us through this minefield. And thank 
you, sir, for being here.
    I am concerned with the Saudi Coalition's disregard for our 
end use requirements. More specifically, the February reports 
that the coalition had gifted armored personnel carriers to 
various third-party militia groups on the ground in Yemen, 
including al-Qaida-linked groups.
    Additionally, I was incredibly disturbed at the Houthis and 
the Iranians have gotten their hands on American-made MRAPs and 
are probably busy reverse-engineering them.
    What steps are being taken to ensure that none of these 
weapons end up in our third-party--in third-party hands or even 
the hands of our enemies, which generally third-parties turn 
out to be?
    Mr. Cooper. Congressman, thank you.
    What I can share in this open fora is that with security 
partnerships, not only--provision of arms munition does not 
preclude us on accountability and on followup. So in that 
particular case, on the MRAPs, one of the first things I did in 
arriving at the Department was to contact bilaterally our 
partners, the Emiratis. I do not want to go into detail here 
but I can tell you that there are some requirements that they 
need to be responsive to on that. And it is not limited to this 
partner. This would be every partner where we do lay out some 
conditions that need to be met.
    So it is not the first time in the history of the 
Department where we have approached a partner for not only 
accountability but also some reconciling points on particular 
third-party transfers.
    Mr. Burchett. Yes, sir, I would like to have one of those 
closed door meetings, although I do not know really what good 
they do. I left one once early on and I asked my colleague 
beside me, I said I am going to miss about 30 minutes of it, I 
guess I can probably catch it on CNN or FOX pretty quickly 
after I leave here.
    Mr. Cooper. I hope not.
    Mr. Burchett. Yes, well, I am afraid this--anyway.
    Are you concerned that this created a precedent where non-
Gulf partners may try to use near-peer competition as leverage 
to extract demands from the United States?
    Mr. Cooper. No, sir, and the reason why is because what was 
the prime predicate to this emergency was the threat streams 
from Iran.
    So again, I want to share that while there were multiple 
audiences, and there certainly were several conditions 
contributing to the emergency determination by the Secretary, 
the primary one was the threat streams from Iran.
    Mr. Burchett. OK, thank you very much and thank you for 
being here.
    Mr. Chairman, thank you for allowing me always to speak. 
And I will yield back the remainder of my time.
    Chairman Engel. Thank you, Mr. Burchett.
    Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    We are here today, Mr. Chairman, obviously because 
President Trump has declared an emergency, has authorized the 
U.S. sale of arms to Saudi Arabia and the UAE while 
circumventing Congress. The problem, Mr. Chairman, is that this 
Administration has been discredited with regards to fabricating 
emergencies when there are not and ignoring emergency when in 
fact there are emergency.
    Mr. Chairman, I submit to you that this practice by the 
Administration is very troubling. And as I said, it has a 
dismal record of fabricating emergencies where there are none 
and ignoring emergencies when, in fact, there are.
    Now let's go to the tape on this one. So there was hundreds 
and thousands of women, primarily, showing up on our border 
with little children. Many had characterized that as a 
humanitarian crisis. So what does this Administration do? It 
ignores it and tries to build a wall.
    So there is a Muslim ban put into practice. I, myself, went 
to JFK Airport when it did try to stop folks of Muslim faith. 
The two families that I assisted were both families of members 
of the Armed Forces of Muslim faith, whose mother and wife were 
coming into the country and they were detained with the 
potential of being sent back. So much for a fabricated crisis.
    The scientific community says that there is a problem with 
global warming, that there is an emergency. And yet, this 
Administration chooses to walk away from the Paris Accord.
    And then let's go to now Saudi Arabia, MBS, Khashoggi. We 
all know the Khashoggi entered the Saudi Embassy in Istanbul on 
October 2, 2018 at about 1 p.m. and that in fact he was chopped 
up into little pieces with a buzz saw.
    Mr. Secretary, do you feel that Khashoggi is a law-abiding 
democratic leader? I am sorry, MBS--do you feel that MBS is a 
law-abiding democratic leader?
    Mr. Cooper. To your question on our partners in Riyadh, 
their system of government is different. They are a partner of 
ours. They are an important regional security partner.
    As you mention Khashoggi, however, it does not preclude us 
holding those who committed that murder accountable. That is 
something that the Government is committed to and----
    Mr. Espaillat. Is there a problem----
    Mr. Cooper [continuing]. I think both Congress and----
    Mr. Espaillat. Is there a problem in Saudi Arabia of 
women's rights?
    Mr. Cooper. It is fair to say that we, as a Government, 
continue to lean on and continue to encourage our partners to 
validate rule of law, recognize the rights, the human rights of 
individuals----
    Mr. Espaillat. Is there a problem in Saudi Arabia with 
dissidents being tracked down and disappearing or, perhaps, 
being tortured and jailed?
    Mr. Cooper. Congressman, our security relationship does not 
preclude our work, our constant and necessary work to get a 
partner like Saudi Arabia to do better when it comes to human 
rights in open society----
    Mr. Espaillat. So we are dealing with a thug, here. We are 
dealing a thug here that we are giving arms to.
    Do we, as a common practice, sell arms to the Kim regime in 
North Korea?
    Mr. Cooper. Different--different----
    Mr. Espaillat. Do we sell arms to Putin in Russia?
    Mr. Cooper. That adversary is not the same.
    Mr. Espaillat. So we do not sell----
    Mr. Cooper. They are not a security partner of ours.
    Mr. Espaillat. So we do not sell arms to Putin. We do not 
sell arms to Kim because they are thugs.
    Mr. Cooper. Well, we do not sell arms to adversaries----
    Mr. Espaillat. And yet, we are selling arms to MBS?
    Mr. Cooper. We do not sell arms to those who are an 
existential threat to the United States and U.S. interest.
    Moscow is a threat. We are addressing a threat in 
Pyongyang. Riyadh is a security partner of ours. We are working 
with a security partner. One that does not preclude us from 
addressing those issues that you enumerated----
    Mr. Espaillat. I think----
    Mr. Cooper [continuing]. But they are still a security 
partner.
    Mr. Espaillat. Mr. Secretary, I think that having an 
American citizen go into an Saudi embassy in Istanbul and 
disappearing is troubling and that MBS has a troubled record 
with regards to women's right, dissidents in that nation, and 
that we are dealing with a thug. We are arming a street thug 
and that we should be ashamed of that. And that this 
Administration, once again, has fabricated a crisis and has 
circumvented Congress.
    I yield back, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Espaillat.
    Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair. Thank you, Secretary Cooper 
for being here.
    Both the Wall Street Journal and The New York Times have 
written articles about Charles Faulkner. He was a Deputy 
Assistant Secretary of State for Legislative Affairs. Prior to 
that position, he lobbied for a defense contractor that made 
precision-guided munitions, which form a large part of these 
weapon sales.
    Did you know Mr. Faulkner?
    Mr. Cooper. I did not get a chance to meet him. He had 
departed the Department before I arrived.
    Mr. Lieu. Was he involved in these weapon sales that we are 
talking about?
    Mr. Cooper. Not that I am aware of but I never had a chance 
to meet Mr. Faulkner.
    Mr. Lieu. Was he forced to resign?
    Mr. Cooper. I am not aware and I cannot also talk about 
personnel actions.
    Mr. Lieu. Did you read The New York Times and Wall Street 
Journal articles about Charles Faulkner?
    Mr. Cooper. I saw one of the articles, I believe.
    Mr. Lieu. But is the article accurate?
    Mr. Cooper. I do not know. I do not know. I do not think 
so. I do not know Mr. Faulkner but, again, he had a particular 
function in the H Bureau but I am not aware of him having a 
role.
    Mr. Lieu. So you are not aware if he was involved in these?
    Mr. Cooper. No, sir, I am not.
    Mr. Lieu. Could he have had a role in these 22 cases?
    Mr. Cooper. Well if one looks at processing with H, so we 
were talking earlier today about the consultative process on 
informal review, tier review----
    Mr. Lieu. He could have had a role in that process.
    Mr. Cooper. He would have on the--absolutely. So the 
notification process, from an historic nature, based on how old 
some of these cases were----
    Mr. Lieu. Thank you.
    Mr. Cooper [continuing]. Based on his time, he would have, 
especially the ones that were 18 months, nearly 2 years old, he 
would have been aware of communicating that to Congress on the 
informal notification.
    Mr. Lieu. So part of the weapons would be precision-guided 
munitions. Behind me is a strike at a civilian funeral in Yemen 
in 2016. And what happened is Saudi jets came by, dropped very 
precise precision-guided munitions, killed and injured hundreds 
of civilians. Then those jets came around again and struck the 
same place.
    As a result, the State Department and other agencies went 
into a huge agency review process and they realized that 
precision-guided munitions were making things worse in Yemen 
because the Saudis were actually intending to hit the targets 
that they struck. We saw that last year, when the Saudis very 
precisely struck a school bus, killing over 40 children.
    There was a legal memo written the State Department about 
possible war crimes that the U.S. may be involved in because we 
were giving weapons to an organization that we knew, a 
coalition that was committing war crimes. Have you seen that 
memo?
    Mr. Cooper. I am not aware of that memo, Congressman.
    Mr. Lieu. In your job, do you have to make sure that weapon 
sales comply with the Law of Armed Conflict?
    Mr. Cooper. We do.
    Mr. Lieu. Were you given any advice from State Department 
lawyers or other lawyers about whether these sales complied 
with the Law of Armed Conflict?
    Mr. Cooper. We do. That is part of the process on the front 
end. So if we talk about the left side of this, and we are 
talking about the early stages, we--that part of that review 
takes place.
    Mr. Lieu. Is this written or oral guidance you were given?
    Mr. Cooper. Both, in some cases.
    Mr. Lieu. All right. Could we see the written guidance you 
were given as to how these weapon sales comply with the Law of 
Armed Conflict?
    Mr. Cooper. As far as legal analysis or intelligence 
analysis, I do not think that is in my purview but I note that.
    I could tell you that from when we are looking at any case, 
it is not just a matter of regional political policy dynamics. 
It does include the legal review that you mentioned. It also 
includes----
    Mr. Lieu. You were given written guidance on the Law of 
Armed Conflict about these weapon sales.
    Mr. Cooper. There is always an ongoing process on any case.
    Mr. Lieu. I get it. Were you given any written guidance on 
the Law of Armed Conflict?
    Mr. Cooper. There is going--there would be at some times in 
these cases----
    Mr. Lieu. Either in an open or a classified setting, can we 
get that written guidance?
    Mr. Cooper. I cannot commit to release of internal 
deliberations. Again, that is not just legal. That is also 
intelligence, human rights, foreign policy, a number of 
considerations that go through not only the Department but 
external to the Department.
    Mr. Lieu. So you know that under Law of Conflict in 
international law, personnel can be liable for war crimes if 
they give weapons to people they know are going to commit war 
crimes. So in the case of Charles Taylor, he was prosecuted for 
war crimes. The U.S. Government actually cited that case in a 
supplemental governmental filing.
    So let me ask you this: Do you agree with that principle 
that if we sold a whole bunch of weapons to a coalition that we 
knew was going to commit war crimes that we could also be 
liable for war crimes, personnel?
    Mr. Cooper. Our security partner, our partner in the Gulf--
our partners in the Gulf, we are working with them to mitigate 
civilian casualties.
    So as you noted, precision--it is not just precision. I 
would agree with you on that. It is about process. It is about 
getting it right, getting it good on mitigating.
    So it is not just a matter of precision weapons because 
that is not enough. It is a matter of targeting integrity. It 
is also getting a partner up to a standard that we would not 
only find acceptable in the U.S. but as well as in other fora.
    Mr. Lieu. Thank you. And the Republicans in our U.S. Senate 
is about to pass 22 resolutions blocking these arms sales on a 
bipartisan basis because those standards have not been met.
    I yield back.
    Chairman Engel. Thank you, Mr. Lieu.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    Greetings, Secretary Cooper. The administration informed 
Congress just last week that included in the Administration's 
emergency authorization for arms is a provision that allows 
Raytheon Company, a top American defense firm, as you are 
aware, to team with the Saudis to build high-tech bomb parts in 
Saudi Arabia.
    Previously, the U.S. has guarded such technology and we 
have seen what has happened in China as American companies were 
forced to produce key technological parts of wind turbines in 
Chinese plants. In January 2018, a wind turbine company based 
in Beijing called Sinovel was found guilty of stealing trade 
secrets. Specifically, the obtained software developed by the 
U.S. company, AMSC, to manage the flow of electricity from wind 
turbines into the electrical grid.
    So my question to you is: Can you assess the risk of Saudi 
Arabia potentially stealing highly sensitive defense 
information that will be used to build these weapons?
    Mr. Cooper. Thank you Congresswoman Wild. And you are 
correct to observe that when we are working with any partner, 
be it Saudi Arabia or anybody, that as far as protection of not 
only trade information but unique technology do need to be 
protected. It is part of our risk assessment in any transfer of 
arms, as well as any transfer of tech. This is not just Saudi 
Arabia. This is all partners.
    To your particular question, those are not unique 
technologies that have not already been introduced into the 
ecosystem, so to speak, with Saudi Arabia. And another point 
that was part of the analysis was also how that would impact or 
not impact our defense industrial base back here at home.
    So when we are looking at it from a global supply chain 
aspect, not new to the region, not new to the partner certainly 
does not preclude protections or Governors and assessed not an 
impact on our industrial base as well.
    Ms. Wild. OK, let me stop you there.
    So is it your testimony that the technology that will be 
shared is out there in the chain of knowledge and information 
in this industry?
    Mr. Cooper. Specific to Saudi Arabia, it is not a new 
application but it is not in the open fora, if that is what you 
are asking.
    Ms. Wild. So you are saying it is technology that Saudi 
Arabia already has that we are sharing with them.
    Mr. Cooper. That they have not already been exposed to is 
probably a better way to put it.
    Ms. Wild. Exposed to in what way?
    Mr. Cooper. Through our MIL to MIL, our security 
cooperation status.
    Ms. Wild. So is it your testimony there is no new 
technology that is being shared with the Saudis?
    Mr. Cooper. There is technology associated with this 
manufacturing that is not new.
    Ms. Wild. I do not think that is an answer to my question.
    Mr. Cooper. OK. All right.
    Ms. Wild. My question to you is, very specifically: Is 
there any new technology being shared with the Saudis as part 
of this emergency authorization for arms?
    Mr. Cooper. In this declaration, I am not aware of there 
being new technology, not only not new to the partner but also 
not new as far as what has been presented to Congress.
    Ms. Wild. I am not sure that is an answer but let me just 
move on.
    The arms sale notification States that the Saudis and 
Emiratis will co-produce some of the weapons in the arms sale 
package, meaning they will co-produce with the United States. 
That means that this weapons deal will ship American jobs, 
manufacturing, and technology overseas. At least three of the 
22 arms sale licenses would allow a U.S. defense company to 
shift production of military items to Saudi Arabia and the 
Emiratis, which will hurt American workers and could cost 
Americans jobs.
    First question: Why is the co-production needed and 
included in this deal?
    Mr. Cooper. The co-production is part of our reassurance of 
our allies. To your point about the industrial base, we want to 
make sure that these particular partners not only had that 
reassurance but to send a message that we do trust them as a 
partner.
    The assessment aspect of it----
    Ms. Wild. Wait a second. Wait, wait, wait. We are selling 
them arms, right?
    Mr. Cooper. Right. So this----
    Ms. Wild. Why do they need assurance that they can trust 
us?
    Mr. Cooper. This is interoperability. This is also 
integration. This is a global supply chain. And these are parts 
that are American-produced. So when we talked about the 
assessment question on our impact or not impact on our 
industrial base, that did factor.
    This is inclusive of American made components----
    Ms. Wild. I understand that.
    Mr. Cooper [continuing]. That would be manufactured----
    Ms. Wild. I understand it is a co-production process but it 
seems to me that what we have got is a situation where we are--
this arms sale deal and emergency authority is basically 
shipping American jobs and manufacturing abroad, right?
    Mr. Cooper. It is actually a creation of jobs. It is a 
proliferation of jobs. So you could call it a positive 
proliferation but it is inclusive of jobs for manufacturing 
components here that are integrated with those components and 
manufacturing abroad.
    This was something that was part of the assessment and did 
not see an incursion upon, essentially, our bottom line.
    Ms. Wild. And that is the end of justification.
    Thank you, I yield back.
    Chairman Engel. Thank you.
    Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman.
    Mr. Secretary, thanks for coming. I know people talked 
about having a further classified briefing. I would welcome 
that. However, as a couple of my colleagues have discussed, 
Secretary Pompeo briefed Members of Congress in a classified 
setting on May 20th and 21st, yet there was no mention made of 
a need for the emergency that was announced 3 days later. I 
know because I was there.
    Had there been discussions about an emergency declaration 
before he briefed us? Had you been involved in any discussions 
about the need for an emergency declaration before he briefed 
us?
    Mr. Cooper. I could tell you that there is ongoing----
    Mr. Levin. Was there before--sir, we do not have a lot of 
time. Yes or no?
    Mr. Cooper. So, OK. Congressman Levin, certainly looking at 
what we call tools, the emergency declaration was certainly in 
the toolkit, no different than us being----
    Mr. Levin. But why did not the Secretary say a dang thing 
about it when he came and briefed us in a classified setting--
--
    Mr. Cooper. I am not going to----
    Mr. Levin [continuing]. Three days before you announced it?
    Mr. Cooper. I am not going to take a guess or gander but I 
could provide here right now is that you had an emerging, 
changing posture on the----
    Mr. Levin. So within 3 days, an emergency was created that 
required that declaration.
    Mr. Cooper. Congressman, yes. Yes.
    Mr. Levin. So your testimony here is that in those two or 
three intervening days, an emergency arose that required a 
declaration.
    Mr. Cooper. I would--yes. And I would parallel this to also 
imposition of sanctions. I mean we have a number of tools in 
our diplomatic----
    Mr. Levin. Sir, with all due respect, I just do not think 
that is credible.
    Let me move on. You said here, and I am quoting you as best 
I can, earlier, holding a partner accountable does not prevent 
us from working with that partner, quote, unquote. And you 
referenced human rights, civil society.
    In what ways is the United States holding Saudi Arabia 
accountable for the gruesome murder of the Washington Post 
journalist, Mr. Khashoggi? How are we holding them accountable?
    Mr. Cooper. There has been a line of communication, not 
only by the Secretary but others, with Riyadh on----
    Mr. Levin. So we are chit-chatting about it in private.
    Mr. Cooper. And there is no question, I do not think there 
is any question or daylight on the concurrence that his murder 
was prosecuted in a fashion that needs to be addressed, and 
needs to be made accountable, and those involved need to be 
brought to justice.
    As to that----
    Mr. Levin. Was the Crown Prince involved, sir?
    Mr. Cooper. I do not know.
    Mr. Levin. The CIA has concluded that he was.
    Has the President of the United States and the Secretary 
admitted the findings of our intelligence agencies that the 
Crown Prince ordered the murder of Mr. Khashoggi?
    Mr. Cooper. As a 20-year member of the intelligence 
community, I am not going to talk classified information in 
here.
    I will say, though, that there is no disagreement on 
anybody in the Administration or on Capitol Hill that Mr. 
Khashoggi's murder needs to be addressed----
    Mr. Levin. OK, so----
    Mr. Cooper [continuing]. And those who prosecuted the 
murder need to be brought to justice.
    Mr. Levin. OK, let me move on. I have limited time. I 
appreciate your answer.
    In what way are we holding Saudi Arabia accountable for the 
war crimes it has committed by murdering civilians on multiple, 
multiple occasions in Yemen and for causing a famine in Yemen 
through the prosecution of this war that we have been actively 
involved in? In what way are we holding them accountable, 
besides vetoing congressional resolutions about it?
    Mr. Cooper. We are also combating the Houthi threat, 
which----
    Mr. Levin. I am not asking about the Houthi threat.
    Mr. Cooper. Well, the Houthi treat contributed to the 
famine.
    Mr. Levin. Sir, the Houthi threat does not necessitate war 
crimes.
    Mr. Cooper. Houthi's mining grain mines and denying access 
to food----
    Mr. Levin. You just want to change the subject.
    Mr. Cooper. OK.
    Mr. Levin. We can have another hearing about Houthi war 
crimes. I am talking about--you are selling arms to Saudi 
Arabia and you are making a simplistic black and white thing; 
this is the good guys, this is the bad guys.
    Mr. Cooper. It is not binary. It is not simplistic, 
Congressman Levin. I think no one here would ever say that 
this----
    Mr. Levin. So in what way are we holding Saudi Arabia 
accountable for the horrific crimes it is committing in Yemen?
    Mr. Cooper. Our partnership with this security partner----
    Mr. Levin. Namely, Saudi Arabia.
    Mr. Cooper. Correct, they are----
    Mr. Levin. You can name them.
    Mr. Cooper. They are not the only one but that particular 
partner in the region, our partnership with Riyadh does--it is 
incumbent upon us to provide not only the munitions but also 
the training and the sustainment that goes with it. That is in 
inclusive of our relationship to get them to be a better 
partner.
    Mr. Levin. Sir, my time has expired. In the end, we all 
have to answer for our actions in the same way and I just pray 
that we take more seriously the horrific reality on the ground 
in Yemen and change course immediately.
    I yield back, Mr. Chairman.
    Chairman Engel. Thank you. The gentleman yields back.
    I am going to call on Ms. Spanberger to ask a question, and 
Mr. Malinowski to take the chair, and then ask his question 
after Ms. Spanberger.
    Ms. Spanberger.
    Ms. Spanberger. Thank you, Mr. Chair.
    Mr. Secretary, thank you for being here today. As followup 
to my colleague Mr. Levin's comment, I want to give you the 
opportunity to perhaps correct what it is you said. The 
statement related to Jamal Khashoggi's murder, a Virginia 
resident. You said his murder was prosecuted in a fashion that 
needs to be addressed.
    It is my hope that the Department does not think that any 
State-sponsored murder that happens in a consulate is ever one 
that is perhaps just discussed related to how it was actually 
prosecuted. I hope that you will denounce that murder. Would 
you like to take the opportunity to do that now?
    Mr. Cooper. Thank you. We have denounced the murder and, of 
course, we would never abide by State-sponsored acts like that. 
So no, we--there is no daylight on that one.
    Ms. Spanberger. Thank you. Mr. Cooper, in your testimony, 
you have repeatedly referred to the need to provide our 
partners in the region with defensive capabilities. In fact you 
say, specifically, this is not intended to be an escalatory 
military step and yet, many of the 22 cases are distinctly 
offensive weapons, including the Paveway precision-guided 
munitions or smart bombs. We have a picture of that weapon 
system right here.
    Can you explain to me the disconnect to why we are 
providing offensive and extremely lethal weapons for apparently 
defensive purposes?
    Mr. Cooper. Thank you. So as far as weapons capability, we 
want to make sure that not only these partners in the region, 
if they are actually carrying equities for us, that it is not a 
matter of just their own sovereignty but ensuring that they are 
providing protection for our equities. So it is not just a 
matter of saying we want to make sure your sovereignty is 
protected, they are carrying a weight for us.
    As far as the precision aspect, as discussed earlier, it is 
contributing to what would be considered the improvement or 
targeting integrity in any realm to ensure that the target is 
actually the one that is supposed to be hit is hit versus a 
scattagorical or a less precise target.
    Ms. Spanberger. OK, so let's talk about that targeting 
integrity with the next image we have here.
    This is actually a school bus that was hit by one of these 
Paveways. More than 40 children died when this precision-guided 
weapon hit a school bus. More than 50 people killed, more than 
40 of them school children.
    So when are talking about the offensive weapons that we 
deem--that the Department now deems is in an emergency exigent 
circumstance, one that the Department chooses to circumvent the 
congressional power, Article I of the Constitution, which gives 
us the authority to approve weapon sales of these types of 
weapons to entities that will commit mass atrocities like this, 
I just want to make sure we are clear on the level of lethality 
that we are discussing.
    And that brings me to a point. You have referred multiple 
times to a protracted process. And I would remind you, sir, 
that the protracted process you are bemoaning is, in fact, the 
constitutional process that we, as Members of Congress, have a 
responsibility to exercise when we are selling our weapon 
systems that are this lethal to countries abroad, be they 
allies or otherwise.
    And you have specifically said this is a one-time event, a 
one-time event. But I would note that there is nothing 
specified in this statute that says the Department can have 
this one-time circumvent effort around constitutional 
authority.
    Are you committing to this being a one-time event?
    Mr. Cooper. One-time event is conditions-based. But I will 
tell you if you look at the history and the precedent, this is 
only the fifth time in 40 years that this has been applied. The 
first time was in 1979 during the Carter Administration. This 
is only the fifth time.
    So it is, you are right, it is highly unusual. The 
circumstances are unusual but it is a part of that toolkit for 
diplomatic deterrence.
    Ms. Spanberger. So I would also note, having spent time in 
national security myself, these are not toolkits for diplomatic 
returns. These are toolkits for more aggressive offensive 
natures.
    And speaking of offensive, the U.S. is supporting the Saudi 
offensive efforts against the Houthis but where does that lead 
us? We have talked a lot about Iran. We have talked a lot about 
the escalation with Iran. We are now supplying these weapons to 
Saudi Arabia and another--a number of other partners in the 
Gulf, including fighter jets, precision-guided munitions, anti-
tank missiles.
    What it is we are preparing for, sir? I did attend that 
classified briefing as well. There was no clear discussion that 
some major incident was imminent and, therefore, the need to 
circumvent Congress. What is it that we are preparing for that 
we are arming our allies in the region with this many offensive 
weapons?
    Mr. Cooper. On readiness and capability. We can talk 
further in a closed brief.
    I would also say there are some threat streams that are not 
just directly tied to U.S. interest. I was able to talk about 
one here today because it was open source. So the attack on the 
civilians at the International Airport in Saudi Arabia----
    Ms. Spanberger. That happened today, more than weeks after 
this emergency declaration was put in place.
    Mr. Cooper. Right but I am using that as an example in an 
open fora. That is not unique.
    So we do need to have a further conversation about those 
types of impacts and capital I impacts. So threat streams 
definitely are a factor but it is not, when I say streams, it 
is direct threats to us, the indirect threats to us via proxies 
in other locations outside the region, and then direct threats 
to our partners in the region.
    Ms. Spanberger. And many of my colleagues have raised the 
issue of this being a general trend that we are seeing out of 
this Administration to circumvent the responsibility of 
Congress. And I would like to again note for the record that we 
also have constitutional responsibility as it relates to any 
aggressive war-making actions, be it with Iran or anyone else.
    So I hope that if the Administration is, indeed, trying to 
preparing itself for any sort of offensive hostilities, they 
will begin respecting the Constitution, Article I of the 
Constitution and come before Congress to make their case.
    Thank you. I yield back.
    Mr. Malinowski [presiding]. Thank you.
    I will recognize myself.
    Secretary, you opened your testimony by referring to the 
last time this happened in 1984 when we shipped a bunch of 
Stinger missiles to Saudi Arabia to defend against a threat 
from Iran. Can you tell us what a Stinger missile is?
    Mr. Cooper. It is an offensive capability.
    Mr. Malinowski. It is a weapon for shooting down aircraft 
that are attacking you.
    Mr. Cooper. Yes.
    Mr. Malinowski. It is a defensive weapon.
    Mr. Cooper. Yes.
    Mr. Malinowski. It was designed to defend Saudi Arabia 
against potential air attacks from Iran. And at that point, 
actually, the Department made explicitly the case that the 
reason these weapons were being provided is that they were 
available immediately to help the Saudis deal with an imminent 
threat.
    Mr. Cooper. Right.
    Mr. Malinowski. We are now talking about precision-guided 
munitions, Paveways and the like. These are not defensive 
weapons. These are weapons designed to enable Saudi Arabia to 
continue conducting air strikes in Yemen, is that not right?
    Mr. Cooper. That is correct but I would go back to the 
defensive capability issue that you brought up. Our partners, 
we do provide--there are some defensive systems that we have 
provided that are anti-aircraft, anti-air artillery, ADA 
capabilities. However, when one looks at the concentric ring of 
security, we are not just talking about particular capabilities 
that are coming or occurring upon sovereign space of our 
partners. There is addressing the threat streams that are 
direct to their sovereignty but also in a regional capacity.
    So yes, those are offensive capability----
    Mr. Malinowski. They are offensive weapons. They are not 
going to help the Saudis defend against attacks on their 
shipping or missile attacks on the airport in Riyadh.
    You also mentioned, at one point earlier today, that 
precision weapons are helpful in avoiding civilian casualties 
in Yemen, which I find that rather strange. They are using 
precision weapons now, are they not?
    Mr. Cooper. That is correct.
    Mr. Malinowski. They have been using precision weapons to 
precisely hit hospitals, schools, bridges, humanitarian 
targets. These are precision strikes.
    So how is the provision of additional PGMs going to help 
them avoid civilian casualties? Help us there.
    Mr. Cooper. No one would deny the tragedy, the heartbreak 
of the civilian casualties. There is no question about that.
    There is room to improve the integrity of the targeting 
process. It does not preclude us from making sure that our 
partners, as we are doing, as is reported, to get them to be in 
a better place to apply precision weapons in a precise manner 
for targets that are not civilian targets, that are not 
civilian entities.
    Mr. Malinowski. Well, we have been trying to do that for 5 
years.
    In March, there was a strike by the Saudis, presumably 
using precision weapons on a Save the Children Hospital in 
Yemen. That hospital was on a no-strike list that we provided 
to the Saudis, was it not?
    Mr. Cooper. I do not know but it should have been on a no-
strike list.
    Mr. Malinowski. Well, there you have it and yet, you have 
testified today, Secretary, that the reason we are doing this 
is because we need to reassure the Saudis to trust us and they 
continue, year after year in Yemen, to hit targets that we have 
specifically asked them not to hit. And our response to that is 
to blow past congressional objections, to give them these 
weapons so that they can trust us.
    Isn't the issue whether we can trust them?
    Mr. Cooper. With any partnership, including Saudi Arabia, 
there is an ongoing discourse, ongoing engagement. There is 
work to be done. But to walk away from our partner would make--
would exacerbate the situation in Yemen.
    Mr. Malinowski. No one is suggesting we walk away.
    Mr. Cooper. There were civilian targets that have been 
victim by Houthi targeting. But to walk away from our partner, 
would exacerbate the current situation.
    Mr. Malinowski. No one is suggesting we walk away.
    Let me shift to one last issue. We brought up, several 
members have brought up the Khashoggi killing. And setting 
aside the controversial question of who ordered it, did they 
set out to kill him or kidnap him? Would you say it is fair to 
assume that the Saudi Government's intention in targeting 
Khashoggi was to send a message to Saudi exiles in countries 
like the United States who are critical of the Saudi regime? Is 
that a fair starting assumption, would you say?
    Mr. Cooper. I am not going to assess the assumption but 
what I can provide is that from a USG standpoint is that we do 
support dissident voices, wherever they are located, Saudi 
Arabia or any other partner, that we do not silence civil 
society; that we actually bolster and support civil society.
    Mr. Malinowski. Understood. The reason I asked, are you 
familiar with Section 6 of the Arms Export Control Act?
    Mr. Cooper. If you are referring to 36(c)--are you talking 
about Section----
    Mr. Malinowski. No, Section 6. It says that we--no export 
licenses may be issued under----
    Mr. Cooper. Yes.
    Mr. Malinowski [continuing]. This Act with respect to any 
country determined by the President to be engaged in a 
consistent pattern of acts of intimidation or harassment 
directed against individuals in the United States.
    Have you looked at this case and others with respect to the 
application of the Arms Export Control Act?
    Mr. Cooper. That is correct. And that was part of the 
calculus on all these cases when they entered the congressional 
informal process, the review process, the tier review process. 
Again, some of these predating the murder of Mr. Khashoggi, 
some of these actually after the murder of Mr. Khashoggi.
    Mr. Malinowski. So you see no pattern of intimidation of 
individuals in the United States by the Saudis?
    Mr. Cooper. Addressing any kind of intimidation by any 
partner is not precluded from any assessment. That also 
includes--I think what you are referring to in the statute is 
inclusive of the human rights report that is issued by every 
country team and that is also part of the calculus.
    Mr. Malinowski. All right. Well, I yield back and recognize 
Congresswoman Omar.
    Ms. Omar. Thank you, Chairman.
    So it is no secret that you know with in line of what my 
colleague from New York said, Saudi Arabia and the Emirates are 
brutal regimes. They export brutality. They crush democratic 
movements abroad, directly and indirectly. I also believe that 
they have been funders of terrorists. And we have heard reports 
that they are transferring U.S. weapons to al-Qaida.
    I believe that our relationship with them, in its current 
form, is immoral, but it is not only immoral, it is 
counterproductive to our national security. I believe trusting 
them to protect our needs and protecting us against terroristic 
threats is like trusting a thief to protect your shop.
    This Administration, selling them billions of dollars of 
weapons, is dangerous and it is outrageous. Doing so is open 
disregard for the will of Congress and the American people, a 
slap in the face to our democracy and our values.
    Twice in the last 25 years Saudi Arabia and the Emirates 
have invaded Bahrain to crush democratic uprisings. The Saudis 
actively supported the Egyptian coup in 2013. In April of this 
year, the United Nations finally believed they were on the 
verge of negotiating peace in Libya. This has, instead, 
collapsed into a civil war. Haftar has waged his bloody 
campaign with Saudi backing and Emirate weapons.
    More recently in Sudan, Hemeti visited MPS in Jeddah. And 
shortly after that, him and the Janjaweed immediately began 
murdering democratic protesters by the hundreds.
    It is clear that State see Saudi's hand in the crackdown, 
since David Hale called MBS' brother, Khalid bin Salman, to ask 
him to use Saudi influence to stop the killings.
    This is a disturbing pattern of destabilization and 
totalitarianism. Backing the Saudi and Emirates is backing war 
crimes and crimes against humanity; providing them with arms is 
complicity.
    So I ask you: How can we make sure that U.S. weapons do not 
end up in the hands of the Janjaweed? How can we ensure that 
U.S. weapons are not being used to murder political protesters 
in Sudan?
    Mr. Cooper. Congresswoman Omar, thank you.
    As to our partnerships, and you mentioned Saudi Arabia and 
the Emirates, and there are some other partners that are either 
developing or devolving in some cases, all of our partnerships, 
on a security sense, including some that are economic, are 
predicated on our interests, on U.S. interest. But that is not 
new. That is not unique to this Administration, or the previous 
administration, or back to the time of Washington.
    We develop partnerships because of what works best for U.S. 
interest. It does not preclude us, though from holding partners 
accountable, not just on human rights, access to civil society, 
but also holding accountable on protecting our interests. And 
so when we are either provision of a weapon system, or a 
capacity, or a certain kind of sustainment, with that comes a 
relationship. So it is a long-term investment. That is what 
makes us unique to our adversaries.
    Ms. Omar. But to the question of how can we assure that 
this partnership can be trusted to protect us from eventually 
having some of our weapons end up in the hands of terrorists, 
is my question, and making sure that it does not go into 
murdering political protesters in Sudan. Because what we have 
seen is that our weapons have been used to assault schools, 
bridges, hospitals in places like Yemen. We have seen the 
Saudis' involvement and their footprint in Libya. We have seen 
their involvement and footprint in Somalia with al-Shabab.
    So what I am asking you is: How can you assure the American 
people that we are not emboldening them to continue to reign 
their terror in destabilizing that region, when we trust them 
to be a partner in stabilizing it?
    Mr. Cooper. Saudi Arabia has been a long-time security 
partner in the region for almost 40 years. It does not and 
never has precluded us from accountability on the front end of 
the process, not just on Saudi arms transfers and security 
cooperation, security assistance, there is a non-proliferation 
aspect to it.
    And I think an interesting point you brought up is in our 
assessment and our consideration we do in the interagency is 
making sure that in a MIL to MIL sense, there is not spillage, 
so to speak, into law enforcement in that law enforcement 
entities do not--are not in receipt of systems because MIL to 
MIL, those relationships are for sovereignty and security, not 
for the crackdown of civil society, not for the crackdown of 
their own people.
    Ms. Omar. Secretary Cooper, my time is up. What I will say 
is I do not believe this is the case of spillage. This is an 
active engagement. Report after report has shown that this is 
not an accident. This is a part of what the Saudis and the 
Emirates are engaged in and I hope that we will reassess our 
relationship with them in trying to make sure that we are 
stabilizing that region and that we are continuing to engage in 
our war against terror.
    Mr. Malinowski. Representative Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    Secretary Cooper, the Administration has repeatedly 
asserted that issuing these licenses is essential to deal with 
an emergency. In fact, you said earlier in our hearing it was a 
policy decision by the Secretary of State based on an emergency 
so urgent, so urgent that you cannot even wait for a 30-day 
congressional review. In fact, the Secretary's determination on 
May 24th is based on exactly that finding. That was the 
determination, I would just remind you again, that came 3 days 
after a classified briefing for the entire House with the 
Secretary of State, where while it was clearly under 
consideration, he did not take the time to even mention it to 
the Congress.
    But you have clearly made an assessment that the weapons 
and ordinates in these licenses are available for delivery very 
soon, right, if it is an emergency?
    Mr. Cooper. Yes, the ones that were direct commercial 
sales----
    Mr. Deutch. No, no, no.
    Mr. Cooper. OK.
    Mr. Deutch. But that is a--if it is an emergency to deliver 
these, you have considered when they could be delivered, right?
    Mr. Cooper. It is part of the calculus, right.
    Mr. Deutch. So you have got to have specific information 
about when each of these items in these licenses will be 
available for delivery to the Saudis and Emiratis, right?
    Mr. Cooper. Again, part of the calculus.
    Mr. Deutch. Well, I am just asking if you have done that. 
You have done that for each of these, right?
    Mr. Cooper. Yes, so from not just the Department of State 
side, from the interagency side. Regardless if there is an 
emergency status, it is incumbent upon us to----
    Mr. Deutch. No, I understand.
    Mr. Cooper. It is a timing issue, sir.
    Mr. Deutch. Assistant Secretary, I get it. I get it. I have 
sat through this whole hearing.
    Mr. Cooper. OK.
    Mr. Deutch. It is a timing issue and it is such an 
emergency that you could not wait 30 days.
    So what I am trying to figure out is, and what I would ask 
you is, if you could provide the information to the committee 
here, which we have not had an opportunity to hear from you on, 
when each of these items is going to be ready for delivery.
    Mr. Cooper. I cannot say on specific--on specificity on 
each one. What I can say is if it is a DCS sale, a direct 
commercial sale, if it is already off the shelf, it is going. 
It is moving now.
    Mr. Deutch. I cannot----
    Mr. Cooper. What would not be moving is if it is in a 
manufacturing line.
    Mr. Deutch. I get it. I understand.
    Mr. Cooper. OK.
    Mr. Deutch. We all understand that. That is what I am 
asking you. I do not need you to tell me----
    Mr. Cooper. OK.
    Mr. Deutch. No, no, let me just finish. I do not need you 
to tell me if it is manufactured, it is going to come later. I 
want to know if this is an emergency, what is the time line? 
How long will it take? Not the--I will get to the other ones. I 
will get to the commercially made ones. How long will it take 
to manufacture these to produce them for delivery?
    Mr. Cooper. To your question, per case--per case, not all 
cases----
    Mr. Deutch. Yes.
    Mr. Cooper [continuing]. Per case it is conditions based. 
Part of it is contractually based. So we can talk, based on it 
is either going to be a few months or longer, which has 
contributed to the emergency calculus.
    Mr. Deutch. I got you. So it is a few months or longer for 
all but the commercial, which I will get to.
    Mr. Cooper. That is correct.
    Mr. Deutch. It is a few months or longer. So it is such an 
emergency, a few months or longer, for every single one of the 
other items but there was not 30 days for Congress to review. 
You understand why that is so difficult for this institution to 
understand, right?
    Mr. Cooper. The review never stopped, Congressman.
    Mr. Deutch. There was no formal----
    Mr. Cooper. The review was currently happening at the time.
    Mr. Deutch. There was no formal--come on. Assistant 
Secretary, please do not--you said earlier that the review is 
ongoing because we know about this. There was no formal 30-day 
notice, correct?
    Mr. Cooper. The informal notification----
    Mr. Deutch. Correct?
    Mr. Cooper. The informal----
    Mr. Deutch. There was no--there was no formal 30-day notice 
given.
    Mr. Cooper. Congress was in communication with us.
    Mr. Deutch. Was there a formal 30-day notice given?
    Mr. Cooper. The formal----
    Mr. Deutch. Yes or no? Can you direct him to answer that, 
Mr. Chairman?
    Mr. Malinowski. It is a pretty simple yes or no question.
    Mr. Deutch. Yes.
    Mr. Cooper. Yes, there was formal notification in the form 
of an emergency declaration by the Secretary of State.
    Mr. Deutch. That is not what I am asking you and that is 
the problem that we have with the way this whole thing has been 
handled.
    Let me move on. And you understand that, Assistant 
Secretary, and I do not appreciate the--I do not appreciate the 
attempt to try to be clever and simply refuse to answer the 
question, which is no. Pursuant to law, you have not granted 
that 30-day notice. You have gone forward with this emergency 
on a list of items that none of which will be available for at 
least months, except for the ones I am going to talk about now. 
And you could not find time to give us the 30-day notice.
    Let me talk about the commercial ones. Two and a half--over 
$2 billion of precision-guided munitions are available now. Is 
it typical for those to be manufactured before approval is 
given by Congress?
    Mr. Cooper. There are going to be items that are going to 
be on the shelf ready for any partner at any time.
    Mr. Deutch. I want to make sure I understand that. So one 
company manufactured over $2 billion of precision-guided 
munitions just to have on the shelf in case it was decided that 
perhaps they would be available, someone might have interest in 
purchasing them. Is that what you are telling us?
    Mr. Cooper. There are other weapons systems that are 
readily available.
    Mr. Deutch. I understand but with respect to PGMs.
    Mr. Cooper. If it is an earlier generation item, it is 
going to be----
    Mr. Deutch. I just--I want to know about these $2 billion 
in PGMs that are scheduled to be delivered to the Saudis and 
Emiratis by one company. Were these--you are telling me that 
that company built these, hoping 1 day to have a buyer, that it 
was not part of a longer plan. That it was not part of a 
discussion that the President had when he was in Saudi Arabia 2 
years ago; that none of that happened. They just built them and 
oh, here we come; perhaps we will have a chance to sell them.
    Mr. Cooper. I would offer that Saudi Arabia is not the only 
partner that we work with in security cooperation, security 
assistance. So that particular item, PGMs, would not be limited 
to just Saudi Arabia.
    Mr. Deutch. I understand.
    Mr. Malinowski. I have to be ruthless on timing. We have 8 
minutes--seven minutes to vote and we still have Mr. Allred. I 
apologize.
    Mr. Deutch. We do. I just do not think it is too much to 
ask whether the Assistant Secretary is telling us that $2.5 
billion, over $2 billion of precision-guided munitions 
manufactured to be sold to the Saudis and Emiratis were not 
actually manufactured for that purpose and it is a coincidence 
that they are available now pending this emergency declaration.
    Mr. Malinowski. I would say the non-answer does answer the 
question.
    Mr. Allred.
    Mr. Allred. OK. Well, thank you, Mr. Secretary for being 
here.
    Like my colleague, Mr. Levin, I attended the classified 
briefing on May 21st. And the question that Mr. Levin posed to 
you that the emergency emerged--you said that an emergency 
emerged between the classified briefing on May 21st on Iran, 
and the notification to necessitate the use of an emergency 
authorities.
    When was the decision memo prepared?
    Mr. Cooper. Thank you, Congressman Allred.
    The decision process certainly developed with the threat 
streams but what I would offer, as far as having it as a known 
toolkit, it has always been there. So any Secretary of State 
knows that they have, as authorized through statute by 
Congress, that they had this emergency declaration as an 
option----
    Mr. Allred. Excuse me. Are you aware of when the memo was 
prepared?
    Mr. Cooper. Yes, the memo was prepared----
    Mr. Allred. When was that?
    Mr. Cooper. It would have been right before we issued the 
declaration.
    Mr. Allred. So it was prepared before the briefing on May 
21st?
    Mr. Cooper. It was prepared and issued at the time of 
declaration.
    Mr. Allred. All at once?
    Mr. Cooper. But to be fair, to be fair, the ongoing 
analysis and the monitoring of the threat streams well predates 
May 21st threat brief, hence, the necessity to have Secretary 
Pompeo and the Acting Secretary of Defense Shanahan come here 
and brief Congress. So----
    Mr. Allred. You know what I do not appreciate is that when 
Congress assembles and we receive a briefing, that there is an 
emergency declaration made 3 days later that we were not made 
aware of. That should have been given to us at that time. That 
is part of our oversight responsibilities.
    So if the memo was prepared before that briefing, which I 
am going to ask some very directed questions in writing that I 
hope will be responded to about when that was prepared, I want 
to know why we were not briefed on that at that time, when we 
could have asked questions about this.
    So do you have an answer to that question? Do you know why 
Congress was not briefed at the time on May 21st by the 
Secretary of State, the Acting Secretary of Defense, and the 
Chairman of the Joint Chiefs of Staff about an emergency 
declaration that was going to be made 3 days later?
    Mr. Cooper. In a broad sense, Congress was briefed on two 
counts. The first count is before May 21st there was already 
the ongoing consultative process, not only on these 22 cases 
relevant to Iran and the emergency declaration, but also any 
other host of cases that we have before Congress on other 
partners in other parts of the world. That was already 
happening anyway.
    What was unique, as you noted, was the necessity for the 
executive branch to come to Congress and update Congress and 
what had been identified on very specific threat streams that 
were of concern and direct threats to U.S. interest, U.S. 
persons, as well as our partners.
    Mr. Allred. OK. I am going to try and get to the bottom of 
this because I want to know whether or not Congress was kept in 
the dark. That is what I want to know. We are the duly elected 
representatives of the American people and we have a 
constitutional responsibility to oversee what you are doing in 
the name of the American people.
    And if that decision was reached before we were briefed, I 
want to know why we were not told about it. And if it was 
reached after that briefing, then I want to know that as well. 
I want to know what went into that decisionmaking.
    Because to me, this sounds like and it seems like, as many 
of my colleagues have said, an attempt just basically to 
circumvent Congress because we did not agree with the decision 
to sell these arms to Saudi Arabia because of what they are 
doing in Yemen with these weapons.
    The rationale you have given centers around Iran. And I 
want to ask you, because I have asked some of your colleagues 
in the Administration, whether or not you accept the United 
States intelligence assessment by the CIA with high confidence 
that Mohammed bin Salman ordered Jamal Khashoggi's 
assassination, whether you, personally, accept that assessment?
    Mr. Cooper. I am not going to talk about any intelligence 
assessments.
    Mr. Allred. That is not an----
    Mr. Cooper. I am not.
    Mr. Allred. No, I am asking you whether you accept an 
intelligence assessment----
    Mr. Allred. I am not. I am not going to talk about any 
particular assessments, not only on posture, not only on 
threat, not on any assessment in the I.C. in an open hearing.
    Mr. Allred. Oh, this is something that cannot be shared 
with the American people whether or not you accept the CIA's 
own assessment?
    Mr. Cooper. We are talking about assessments.
    Mr. Allred. OK.
    Mr. Cooper. We are not talking about----
    Mr. Allred. Was the declaration of emergency dependent on a 
CIA assessment or on an intelligence assessment, broadly 
speaking?
    Mr. Cooper. The emergency declaration absolutely included 
threat reporting, some of it raw, some of it finished 
intelligence.
    Mr. Allred. So do you see the problem here? Do not answer 
that.
    The problem here is that you are willing to accept an 
assessment here that serves your ends and what you want to do, 
which is sell arms that the Congress does not want you to sell 
to an ally. But you are not willing to accept that assessment 
when it goes to holding that ally responsible for the murder of 
an American resident, of a journalist.
    What happens when the United States of America starts 
sanctioning murders abroad? What happens to the world order 
when we do not stand up and say something? When the Russians 
are able to kill someone in Great Britain, we say something but 
we will not say something when the Saudis do. This is not who 
we are and I think that you know that.
    Mr. Trone [presiding]. Thank you.
    Secretary Cooper, we have got about 2 minutes left. In your 
testimony earlier, you said when our adversaries sell weapons 
of war, they do not place the same, if any, premium that we do 
in addressing the risk of the capabilities that we provide may 
contribute to the abuses of human rights or violation of 
international humanitarian law.
    Do you acknowledge the likelihood these weapons would, in 
fact, contribute to an abuse of human rights or a violation of 
international law?
    Mr. Cooper. Congressman, with all partners, we are 
committed to mitigate any of those abuses. And when we conduct 
our interagency assessments on any transfer, on any sale, that 
is calculated in there.
    It is also not just a part of statute. It is actually a 
part of our policy. Our Conventional Arms Transfer policy 
mandates that we guarantee that we ensure that, as we move 
forward in the consultative process with Congress, that we are 
looking at how we mitigate those risks and that we also 
provide----
    Mr. Trone. What are the guarantees? What guarantees do you 
have with the Saudis or the Emiratis that these weapons will 
not be used against civilians in Yemen? What guarantees?
    Mr. Cooper. Particular to the Saudis in this partnership is 
that this comes with not only the receipt of systems, or 
munitions, or weapons, along with that comes our capacity 
training, our precision training, our rule of law, our Rule of 
Armed Conflict training. This is us being coupled with a 
partner to make them a better partner, not just make them a 
capable partner, make them a better partner. It is incumbent 
upon us to do this.
    Walking away from a partner increases risk, exposes 
potential risks for a more difficult, more catastrophic 
situation.
    Mr. Trone. What type of commitment do we have that they are 
going to actually do that?
    Mr. Cooper. Reportedly, we are getting commitments from the 
Government that they have acknowledged the room to improve, the 
room to be a better partner and actually mitigate civilian 
casualties. There is an acknowledgment----
    Mr. Trone. This is the same guy, the same folks that made 
the deal that took care of Khashoggi with a bone saw? The same 
guys that kidnapped the Prime Minister of Lebanon? The same 
guys that have disappeared hundreds of dissidents who disagree? 
The same group? That is the same group you made the deal with?
    Mr. Cooper. Our relationship with Saudi Arabia is almost 
four decades old. Our relationship with Saudi Arabia----
    Mr. Trone. Four decades old and going in the wrong 
direction.
    Mr. Cooper. It is a relationship that has long invested and 
they are carrying our water, and they are carrying our equities 
on our behalf in a very difficult, fraught region with direct 
threats to us, to our persons and our interest. It does not 
preclude us, though, as you noted, it does not preclude us from 
working with Saudi Arabia or any other partners to ensure that 
they have improved their processes, that it is not just about 
precision, that it is about more dedication and delicacy----
    Mr. Trone. Improvements seem to be going the wrong way. 
That is my clear inclination and everybody else in this 
committee. It is not getting better. It is getting worse by the 
arrogance of the Crown Prince.
    We are all done. Thank you for your testimony.
    Adjourned.
    [Whereupon, at 12:34 p.m., the committee was adjourned.]

                                APPENDIX

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              ADDITONAL MATERIALS SUBMITTED FOR THE RECORD
              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
